Appendix (A)

TENTH CIRCUIT COURT OF APPEALS

CERTIFICATE OF APPEALABILITY DENIAL ORDER

APPENDIX (A)

Case 6:10-cr-10186-JWB Document 210 Filed 04/15/19
Document: 010110154082

Appellate Case: 19-3012

Date Filed: 04/15/2019

Pagel6of4

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

UNITED STATES OF AMERICA,
No. 19-3012
(D.C. Nos. 6:18-CV-01322-JWB & 6:10-CR10186-JWB-l) (D. Kan.)

Plaintiff - Appellee,
v.

RAYMOND L. ROGERS,
Defendant - Appellant.

ORDER DENYING CERTIFICATE OF APPEALABILITY*

Before HOLMES, KELLY, and PHILLIPS, Circuit Judges.
Raymond L. Rogers, proceeding pro se, seeks a certificate of appealability
(COA) to appeal the district court’s order dismissing his 28 U.S.C. § 2255 motion as
an unauthorized second or successive § 2255 motion and dismissing it for lack of
jurisdiction. We deny a COA and dismiss this matter.
Mr. Rogers was convicted after a jury trial of (1) bank robbery, in violation of
18 U.S.C. § 2113(a); (2) brandishing a firearm during a crime of violence, in
violation of 18 U.S.C. § 924(c)(1)(A); and (3) unlawful possession of a firearm by a

* This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive
value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
16

Case 6:10-cr-10186-JWB Document 210 Filed 04/15/19
Appellate Case: 19-3012

Document: 010110154082

Date Filed: 04/15/2019

Page 17of 4

convicted felon, in violation of 18 U.S.C. § 922(g). He was sentenced to 234 months’
imprisonment. We affirmed his convictions and sentence on direct appeal. United
States v. Rogers, 520 F. App’x 727, 728 (10th Cir. 2013). In 2013, Mr. Rogers filed
his first § 2255 motion based on ineffective assistance of counsel. The district court
denied the motion, and we denied a COA. Mr. Rogers then filed a motion for relief
from judgment under Fed. R. Civ. P. 60(b), which the district court denied initially
and on reconsideration. Mr. Rogers appealed that denial, and this court denied a
COA. On November 19, 2018, he filed the underlying § 2255 motion in district
court, arguing that his “Fifth and Sixth Amendment rights were violated because
the original indictment on which he was tried was invalidated by the fifing of a
superseding indictment.” R. at 358. The district court determined that the motion
was an unauthorized second or successive § 2255 motion and dismissed it for lack of
jurisdiction.
Mr. Rogers now seeks a COA under 28 U.S.C. § 2253(c) to appeal from that
dismissal. “A certificate of appealability may issue . . . only if the applicant has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). Because the district court dismissed his petition on procedural grounds,
to obtain a COA Mr. Rogers must demonstrate both “that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a
constitutional right” and “that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
17

Case 6:10-cr-10186-JWB Document 210 Filed 04/15/19
Appellate Case: 19-3012

Document: 010110154082

Date Filed: 04/15/2019

Page 18of 4

484 (2000). We need not reach the constitutional component of this standard since
it is apparent Mr. Rogers cannot meet his burden on the procedural one. See id. at
485.
A prisoner may not file a second or successive § 2255 motion without
authorization from this court. 28 U.S.C. § 2244(b)(3)(A); id. § 2255(h). The district
court lacks jurisdiction to consider the merits of a second or successive § 2255
motion absent authorization. In re Cline, 531 F.3d 1249, 1251 (10th Cir. 2008) (per
curiam).
In his motion filed in district court, Mr. Rogers sought vacatur of his
convictions and sentence, arguing that the superseding indictment filed after the
original indictment “effectively terminated the criminal case against [him],” making
his convictions and sentence “an absolute nullity and void for want of indictment,”
R. at 348-49 (internal quotation marks and brackets omitted). He also argued his
motion was not second or successive because the district court’s ruling on his first §
2255 motion “was not an on the merits ruling, and [was] merely a ruling that [his]
pleading was deficient,” rendering 28 U.S.C. § 2255(h) inapplicable. R. at 346. The
district court determined that the motion “is clearly a § 2255, as it seeks to vacate
his conviction and sentence, and it is just as clearly a second or successive motion
under § 2255.” R. at 358. Because Mr. Rogers had not obtained the proper
authorization from this court to file a second or successive § 2255 motion, the
district court dismissed the motion for lack of jurisdiction and denied a COA.
18

Case 6:10-cr-10186-JWB Document 210 Filed 04/15/19
Appellate Case: 19-3012

Document: 010110154082

Date Filed: 04/15/2019

Page 19of 4

In his COA application to this court, Mr. Rogers repeats his argument that
the district court should not have deemed his filing a successive § 2255 motion
because the district court’s “denial ruling of [his first] § 2255 [motion] does not
constitute an on the merits ruling,” COA App. at 3. In support of his argument, Mr.
Rogers cites Sanders v. United States, 373 U.S. 1, 10 (1963), for the proposition that
“a [district [c]ourt’s determination that the claims in a Petition ‘lack[| merit in fact’
is not a ruling on the merits, and is simply a findingQ that the Petitioner’s
pleadings are deficient.” COA App. at 3. But Sanders does not stand for that
proposition, and the district court’s well reasoned 25-page order denying his first §
2255 motion undoubtedly reached the merits of his claims. Mr. Rogers concedes as
much by stating that “[the district court] denied [his] first § 2255 [m]otion . . . after
concluding that all his assignments of error Q are without merit,” id. at 4 (emphasis
added) (internal quotation marks and brackets omitted). We do not reach Mr.
Rogers’s merits argument that his Fifth and Sixth Amendment rights were violated
by the filing of a superseding indictment because he has not shown that jurists of
reason would find it debatable whether the district court’s procedural ruling
was correct. Accordingly, we deny a COA and dismiss this matter.
Mr. Rogers’s motion to proceed without prepayment of costs or fees is
granted. Nevertheless, he is required to pay all filing and docketing fees. Only
prepayment of fees is waived, not the fees themselves. See 28 U.S.C. § 1915(a)(1).
Payment shall be made to the Clerk of the District Court. Mr. Rogers’s “Motion to
19

Case 6:10-cr-10186-JWB Document 210 Filed 04/15/19
Appellate Case: 19-3012

Document: 010110154082

Date Filed: 04/15/2019

Page 20of 4

Expand or Supplement COA Application and Combined Opening Appellate Brief’ is
also granted.
Entered for the Court
s/ELISABETH A. SHUMAKER
ELISABETH A. SHUMAKER,
Clerk

20

Appendix (B)

KANSAS DISTRICT COURT’S
MEMORANDUM AND ORDER

APPENDIX (B)

Case 6:10-cr-10186-JWB Document 201 Filed 12/13/18

Page 21 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS

UNITED STATES OF AMERICA,
Plaintiff,

No. 10-10186-01-JWB

v.

RAYMOND L. ROGERS
Defendant.

MEMORANDUM AND ORDER
This matter is before the court on Defendant’s Motion to Vacate Sentence Under 28
U.S.C. § 2255. (Doc. 200.) As set forth below, the court finds the motion is a second
or successive one under § 2255, and accordingly it is DISMISSED for lack of
jurisdiction.
I. Background.
On December 7, 2010, Defendant and two others were charged by indictment
with three counts: bank robbery, brandishing a firearm during a crime of violence,
and unlawful possession of a firearm by a convicted felon. (Doc. 12). A superseding
indictment adding three counts relating to another alleged robbery was filed (Doc.
54), but was later dismissed on a motion by the government. (Doc. 91.) A jury trial
was held on the three charges in the original indictment; the jury convicted
Defendant on all three counts. (Doc. 103.)
21

Case 6:10-cr-10186-JWB Document 201 Filed 12/13/18

Page 22 of 4

Defendant was sentenced by the Hon. J. Thomas Marten to a controlling
term of 234 months imprisonment. Judgment was entered on April 17, 2012. (Doc.
120.) On direct appeal, the Tenth Circuit affirmed the judgment and sentence.
(Doc. 142.)
On December 2, 2013, Defendant filed a motion to vacate under § 2255,
arguing among other things that he received ineffective assistance of counsel. (Docs.
146, 147.) Defendant also filed several supplemental briefs. (Docs. 148, 155, 157,
158, 160.) Judge Marten denied the motion in a 25-page written order filed
December 9, 2014, and denied a certificate of appealability. (Docs. 162, 164.)
Defendant appealed the denial of his § 2255 motion, but the Tenth Circuit
dismissed the appeal. (Doc. 169.) The Supreme Court denied a petition for writ of
certiorari. (Doc. 170.)
On January 11, 2016, Defendant filed a Motion for Relief From the
Judgment under Fed. R. Civ. P. 60(b)(4), arguing the court erred in the § 2255
ruling by failing to address certain arguments. (Doc. 175.) Defendant also moved to
amend his § 2255 motion. (Doc. 177.) Judge Marten denied the motion for relief
from judgment, denied the motion to amend as moot, and denied a motion by
Defendant to reconsider. (Docs. 178, 180, 181.) Defendant appealed; the
appeal was dismissed by the Tenth Circuit. (Doc. 189.) The Tenth Circuit also
denied Defendant’s petition for a writ of mandamus (Doc. 194), and the Supreme
Court denied his petition for writ of certiorari. (Doc. 196.)

22

Case 6:10-cr-10186-JWB Document 201 Filed 12/13/18

Page 23 of 4

II. New § 2255 Motion
On November 19, 2018, Defendant filed the motion now before the court: an
additional motion to vacate sentence under § 2255. (Doc. 200.) This motion argues
that Defendant’s Fifth and Sixth Amendment rights were violated because the
original indictment on which he was tried was invalidated by the fifing of a
superseding indictment. (Id. at 3-4.)
III. Analysis
Section 2255(h) provides in part that a second or successive § 2255 motion
must be certified as provided in § 2244 by a panel of the appropriate court of
appeals to contain certain newly discovered evidence or a new rule of constitutional
law made retroactive by the Supreme Court. 28 U.S.C. § 2255(h). Defendant’s
motion is clearly a § 2255, as it seeks to vacate his conviction and sentence, and it is
just as clearly a second or successive motion under § 2255. See United States v.
McCoy, 464 F.3d 1213, 1215 (10th Cir. 2006) (motion is second or successive
petition if it reasserts a federal basis for relief from petitioner’s conviction.) See also
Gonzalez v. Crosby, 545 U.S. 524, 531 (2005) (motion seeking to assert new
challenge to conviction or new evidence in support of a previous claim challenging
conviction is a successive habeas petition.)
Absent authorization from the appropriate court of appeals, a district court
has no jurisdiction to consider a second or successive § 2255 motion. In re Cline, 531
F.3d 1249, 1251 (10th Cir. 2008). In such circumstances, the district court may
23

Case 6:10-cr-10186-JWB Document 201 Filed 12/13/18

Page 24 of 4

either dismiss the motion for lack of jurisdiction or transfer it to the court of appeals
if it is in the interest of justice to do so. Id. at 1252. Where a defendant’s petition is
plainly insufficient, it is appropriate for the district court to dismiss the matter. Id.
The court concludes Defendant’s § 2255 motion should be dismissed.
Defendant’s claim that the indictment against him was invalid due to the filing of a
superseding indictment is contrary to well-established law. See United States v.
Bowen, 946 F.2d 734, 736 (10th Cir. 1991) (no authority for “the proposition that a
superseding indictment zaps an earlier indictment to the end that the earlier
indictment somehow vanishes into thin air.”)
IT IS THEREFORE ORDERED this 13th day of December, 2018, that Defendant’s
Motion to Vacate Sentence Under § 2255 (Doc. 200) is DISMISSED FOR LACK OF
JURISDICTION.
An appeal from a final order on a § 2255 may not be taken absent a certificate of
appealability, which may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The court concludes
Defendant has failed to make such a showing and accordingly a certificate of
appealability is DENIED.

s/ John W. Broomes
JOHN W. BROOMES
UNITED STATES DISTRICT JUDGE

24

Appendix (C)

PETITIONER’S CRIMINAL DOCKET SHEET

APPENDIX (C)

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

U.S. District Court
DISTRICT OF KANSAS (Wichita)
CRIMINAL DOCKET FOR CASE #: 6:10-cr-10186-JWB-l

Case title: USA v. Rogers et al
Related Cases: 6:13-cv-01448-JTM
6:18-cv-01322-JWB
Magistrate judge case number: 6:10-mj-06187-KGG

Date Filed: 12/07/2010
Date Terminated: 04/17/2012

Assigned to: District Judge John W.
Broomes
Appeals court case numbers: 123125 10CCA, 15-3013 10CCA, lb3055 10CCA, 19-3012 10CCA
Defendant (1)
Raymond L. Rogers
TERMINATED: 04/17/2012

represented by Raymond L. Rogers
20787-031
FORREST CITY - FCI - MEDIUM
Federal Correctional Institution
Inmate Mail/Parcels
PO Box 3000
Forrest City, AR 72336
PRO SE
Jeff L. Griffith
Griffith & Griffith
PO Box 184
Derby, KS 67037
316-708-0898
Email: jlgriffithlaw@aol.com
TERMINATED: 01/18/2011
LEAD ATTORNEY
Designation: CJA Appointment
Sean C. McEnuIty
McEnulty Law Firm
151 Whittier St., Suite #1000
Wichita, KS 67207
316-263-0142
Fax:316-681-4499
Email: s@mcenultylawfirm.com
25

<?•

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Designation: CJA Appointment
Pending Counts

Disposition

18:2113(a) - Bank robbery by force
or violence and 18:2 - Aiding and
abetting (INDICTMENT
12/07/2010)
(1)

234 Months Imprisonment (Count 1:
150 months, Count 2: 84 months to
run consecutive to counts 1 & 3,
Count 3: 120 months to run
concurrent to counts 1 & 2); 5 Years
Supervised Release (Counts 1 & 3: 3
years each count, to run concurrent
to each other, Count 2: 5 years to run
concurrent to counts 1 & 3); $300
Assessment
234 Months Imprisonment (Count 1:
150 months, Count 2: 84 months to
run consecutive to counts 1 & 3,
Count 3: 120 months to run
concurrent to counts 1 & 2); 5 Years
Supervised Release (Counts 1 & 3: 3
years each count, to run concurrent
to each other, Count 2: 5 years to run
concurrent to counts 1 & 3); $300
Assessment

18:924(c)(l)(A) - Possessing and
brandishing a firearm in furtherance
of a crime of violence and 18:2 Aiding and abetting (INDICTMENT
12/07/2010)
(2)

234 Months Imprisonment (Count 1:
150 months, Count 2: 84 months to
run consecutive to counts 1 & 3,
Count 3: 120 months to run
concurrent to counts 1 & 2); 5 Years
Supervised Release (Counts 1 & 3: 3
years each count, to run concurrent
to each other, Count 2: 5 years to run
concurrent to counts 1 & 3); $300
Assessment

18:922(g)(l) and 924(a)(2) - Felon in
possession of a firearm and 18:2 Aiding and abetting (INDICTMENT
12/07/2010)
(3)

Highest Offense Level (Opening)
Felony
Terminated Counts

Disposition

18:2113(a) - Bank robbery and 18:2
- Aiding and abetting
(SUPERSEDING INDICTMENT

Dismissed

26

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

06/21/2011)
(Is)
18:924(c)(l)(A) - Possession of
firearm in furtherance of a crime of
violence and 18:2 - Aiding and
abetting (SUPERSEDING
INDICTMENT 06/21/2011)
(2s)

Dismissed

18:922(g)(l) and 924(a)(2) - Felon in
possession of a firearm and 18:2 Aiding and abetting
(SUPERSEDING INDICTMENT
06/21/2011)
(3s)

Dismissed

18:2113(a) - Bank robbery and 18:2
- Aiding and abetting
(SUPERSEDING INDICTMENT
06/21/2011)
(4s)

Dismissed

18:924(c)(l)(A) - Possession of a
firearm in furtherance of a crime of
violence and 18:2 - Aiding and
abetting (SUPERSEDING
INDICTMENT 06/21/2011)
(5s)

Dismissed

18:922(g)(1) and 924(a)(2) - Felon in
possession of a firearm and 18:2 Aiding and abetting
(SUPERSEDING INDICTMENT
06/21/2011)
(6s)

Dismissed

Highest Offense Level
(Terminated!
Felony
Disposition

Complaints
18:2113(a) - Bank robbery;
18:924(c)(l)(A) - Possession and
brandishing a firearm in furtherance
of a crime of violence, and 18:2 Aiding and abetting.

27

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Plaintiff
USA

represented by Aaron L. Smith
Office of United States Attorney —
Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812
316-269-6561
Fax: 316-269-6484
Email: aaron.smith3@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Annette B. Gurney
Office of United States Attorney Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812
316-269-6481
Fax:316-269-6484
Email: annette.gumey@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Janies A. Brown
Office of United States Attorney Topeka
290 US Courthouse
444 SE Quincy
Topeka, KS 66683-3592
785-295-2850
Fax: 785-295-2853
Email: james.brown2@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO RE NOTICED
Lanny D. Welch
Office of United States Attorney Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812

316-269-6481
Fax:316-269-6484
Email: lanny.welch@usdoj.gov

28

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

LEAD ATTORNEY
A TTORNEY TO BE NOTICED
Date Filed
12/03/2010

Docket Text

#

1

12/06/2010

COMPLAINT as to Raymond L. Rogers (1), David L. Hollis, III (2),
Shelan D. Peters (3). (adw) [6:10-mj-06187-KGG] (Entered:
12/03/2010)
ARREST of Raymond L. Rogers, (aim) [6:10-mj-06187-KGG]
(Entered: 12/06/2010)

12/06/2010

3

MINUTE ENTRY for proceedings held before Magistrate Judge
Kenneth G. Gale: RULE 5/INITIAL APPEARANCE as to Raymond L.
Rogers held on 12/6/2010. Detention Hearing set for 12/13/2010 at
01:30 PM in Courtroom 406 (KGG) before Magistrate Judge Kenneth G.
Gale. Preliminary Hearing set for 12/20/2010 at 09:00 AM in Courtroom
406 (KGG) before Magistrate Judge Kenneth G. Gale. (Tape #1:311:40.) (aim) [6:10-mj-06187-KGG] (Entered: 12/06/2010)

12/06/2010

4

CJA 23 FINANCIAL AFFIDAVIT by Raymond L. Rogers, (aim) [6:10mj-06187-KGG] (Entered: 12/06/2010)

12/06/2010

5

ORDER OF TEMPORARY DETENTION as to Raymond L. Rogers.
Signed by Magistrate Judge Kenneth G. Gale on 12/6/10. (aim) [6:10mj-06187-KGG] (Entered: 12/06/2010)

12/06/2010

6

CJA 20 as to Raymond L. Rogers: Appointment of Attorney Jeffrey L.
Griffith. Signed by Magistrate Judge Kenneth G. Gale on 12/6/2010.
(aim) [6:10-mj-06187-KGG] (Entered: 12/06/2010)

12/07/2010

9

ENTRY OF APPEARANCE: by attorney Jeff L. Griffith appearing for
Raymond L. Rogers (Griffith, Jeff) [6:10-mj-06187-KGG] (Entered:
12/07/2010)

12/07/2010

10

Arrest WARRANT returned executed on 12/6/2010 as to Raymond L.
Rogers, (adw) [6:10-mj-06187-KGG] (Entered: 12/08/2010)

12/07/2010

12

INDICTMENT as to Raymond L. Rogers (1) count(s) 1, 2, 3, David L.
Hollis, III (2) count(s) 1, 2, 3, Shelan D. Peters (3) count(s) 1, 2, 3. (aa)
(Entered: 12/08/2010)

12/07/2010

13

NOTICE by USA as to Raymond L. Rogers, David L. Hollis, III, Shelan
D. Peters, (aa) (Entered: 12/08/2010)

12/13/2010

21

MINUTE ENTRY for proceedings held before Magistrate Judge
Kenneth G. Gale: ARRAIGNMENT as to Raymond L. Rogers (1) to
Counts 1, 2, 3 of Indictment held on 12/13/2010. DETENTION
HEARING as to Raymond L. Rogers held on 12/13/2010. Defendant's
29

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

next appearance per scheduling order before Judge Marten. (Tape #1:461:49.) (adw) (Entered: 12/14/2010)
12/13/2010

22

WAIVER OF DETENTION HEARING by Raymond L. Rogers, (adw)
(Entered: 12/14/2010)

12/14/2010

24

GENERAL ORDER OF DISCOVERY & SCHEDULING as to
Raymond L. Rogers, David L. Hollis, III, and Shelan D. Peters: Jury
Trial set for 2/15/2011 at 9:00 AM in Courtroom 238 before District
Judge J. Thomas Marten. Status Conference set for 2/3/2011 at 2:30 PM
in Courtroom 238 before District Judge J. Thomas Marten. Signed by
District Judge J. Thomas Marten on 12/14/10. (mss) (Entered:
12/14/2010)

01/13/2011

29

MOTION to Withdraw Jeff Griffith as Attorney by Raymond L. Rogers.
(Griffith, Jeff) (Entered: 01/13/2011)

01/18/2011

30

CJA 20 as to Raymond L. Rogers: Appointment of Attorney Sean
McEnulty. Signed by Magistrate Judge Kenneth G. Gale on 1/14/2011.
(aim) (Entered: 01/18/2011)

01/18/2011

31

ORDER granting 29 Jeff Griffith's Motion to Withdraw as Attorney for
Raymond L. Rogers (1). Signed by District Judge J. Thomas Marten on
1/18/2011. (mss) (Entered: 01/18/2011)

01/21/2011

32

MOTION for order Granting Authority to Consume Physical Evidence
in Furtherance of the Investigation by USA as to Raymond L. Rogers,
David L. Hollis, III, Shelan D. Peters. (Smith, Aaron) (Entered:
01/21/2011)

01/24/2011

33

NOTICE OF HEARING re: 32 MOTION for order Granting Authority
to Consume Physical Evidence in Furtherance of the Investigation:
Responses shall be filed no later than February 4, 2011. A hearing is set
for 2/7/11 at 1:30 p.m. in Courtroom 238 before District Judge J.
Thomas Marten. (This is a TEXT ENTRY ONLY. There is no.pdf
document associated with this entry.) (mss) (Entered: 01/24/2011)

01/27/2011

35

DEMAND FOR NOTICE OF ALIBI DEFENSE by USA as to
Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters (Smith,
Aaron) (Entered: 01/27/2011)

02/03/2011

38

NOTICE OF CANCELLED HEARING: The status conference set on
February 3, 2011, at 2:30 p.m. as to Defendants Raymond L. Rogers and
David L. Hollis, III is cancelled. (This is a TEXT ENTRY ONLY. There
is no.pdf document associated with this entry.) (mss) (Entered:
02/03/2011)

02/07/2011

39

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: MOTION HEARING as to Raymond L. Rogers, David L.
30

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Hollis, III, and Shelan D. Peters held on 2/7/2011. Counsel for defendant
Peters was present. Defendant Peters was not present. Order to follow.
(Court Reporter Jana Hoelscher.) (This is a TEXT ENTRY ONLY.
There is no.pdf document associated with this entry.) (mss) (Entered:
02/07/2011)
02/08/2011

40

ORDER granting 32 Motion for Order as to Raymond L. Rogers (1) and
David L. Hollis III (2). Signed by District Judge J. Thomas Marten on
2/7/2011. (aim) (Entered: 02/08/2011)

02/08/2011

41

ORDER FOR CONTINUANCE granting 37 Motion to Continue as to
Raymond L. Rogers (1) and David L. Hollis III (2). Motions due by
3/11/11. Jury Trial set for 4/19/2011 at 09:00 AM in Courtroom 238
(JTM) before District Judge J. Thomas Marten. Status Conference set for
4/6/2011 at 02:30 PM in Courtroom 238 (JTM) before District Judge J.
Thomas Marten. Signed by District Judge J. Thomas Marten on
2/8/2011. (aim) (Entered: 02/08/2011)

03/24/2011

44

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Status conference RE-SET for Monday, April 11,
2011, at 2:00 p.m. This is a rescheduling of the April 6, 2011 hearing.
The defendants will not be present for the status conference. (This is a
TEXT ENTRY ONLY. There is no.pdf document associated with this
entry.) (mss) (Entered: 03/24/2011)

04/07/2011

46

ORDER granting 45 Motion to Continue as to Raymond L. Rogers (1)
and David L. Hollis III (2) Status Conference set for 5/11/2011 at 02:30
PM in Courtroom 238 (JTM) before District Judge J. Thomas Marten.
Jury Trial set for 5/24/2011 at 09:00 AM in Courtroom 238 (JTM)
before District Judge J. Thomas Marten. Signed by District Judge J.
Thomas Marten on 4/7/2011. (adw) (Entered: 04/07/2011)

05/11/2011

47

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 5/11/2011. (This is a TEXT ENTRY ONLY. There
is no.pdf document associated with this entry.) (mss) (Entered:
05/11/2011)

05/16/2011

48

MOTION to Continue Jury Trial by Raymond L. Rogers. (McEnulty,
Sean) (Entered: 05/16/2011)

05/18/2011

49

ORDER granting 48 Motion to Continue. Time excluded from
5/16/2011 as to Raymond L. Rogers (1) and David L. Hollis, III. A
Status Conference/Change of Plea and a Jury Trial date of this case will
be scheduled by this Court at a later date. Signed by District Judge J.
Thomas Marten on 5/17/2011. (adw) (Entered: 05/18/2011)

31

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

05/19/2011

50

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Jury Trial set for 7/19/2011 at 9:00 AM in
Courtroom 238 (JTM) before District Judge J. Thomas Marten. Status
Conference set for 7/7/2011 at 2:30 PM in Courtroom 238 (JTM) before
District Judge J. Thomas Marten, (mss) (Entered: 05/19/2011)

06/03/2011

51

ARREST WARRANT returned executed on 12/01/2010 as to Raymond
L. Rogers, (aa) (Entered: 06/06/2011)

06/21/2011

54

SUPERSEDING INDICTMENT as to Raymond L. Rogers (1) count(s)
Is, 2s, 3s, 4s, 5s, 6s, David L. Hollis, III (2) count(s) Is, 2s, 3s, Shelan
D. Peters (3) count(s) Is, 2s, 3s. (aa) (Entered: 06/22/2011)

07/06/2011

63

MINUTE ENTRY for proceedings held before Magistrate Judge Karen
M. Humphreys: ARRAIGNMENT as to Raymond L. Rogers (1) Count
1 s,2s,3s,4s,5s,6s held on 7/6/2011. Defendant's next appearance before
Judge Marten as directed. (Tape #1:36-l :39) (aa) (Entered: 07/07/2011)

07/07/2011

64

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 7/7/2011. (This is a TEXT ENTRY ONLY. There
is no.pdf document associated with this entry.) (mss) (Entered:
07/07/2011)

07/12/2011

65

MOTION to Continue Jury Trial by Raymond L. Rogers as to Raymond
L. Rogers, David L. Hollis, III. (McEnulty, Sean) (Entered: 07/12/2011)

07/14/2011

66

AGREED ORDER CONTINUING JURY TRIAL granting 65 Motion to
Continue. Time excluded from 07/14/2011 until 09/13/2011 as to
Raymond L. Rogers (1) & David L. Hollis III (2). Jury Trial set for
9/13/2011 at 09:00 AM in Courtroom 238 (JTM) before District Judge J.
Thomas Marten. Status Conference is continued to 08/31/2011 at 3:00
PM. Signed by District Judge J. Thomas Marten on 7/13/2011. (aa)
(Entered: 07/14/2011)

08/25/2011

67

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Status conference RE-SET for 8/31/11 at 1:00 PM
in Courtroom 238 before District Judge J. Thomas Marten. THIS IS A
TIME CHANGE ONLY. (This is a TEXT ENTRY ONLY. There is
no.pdf document associated with this entry.) (mss) (Entered:
08/25/2011)

08/29/2011

68

MOTION to Continue Status Conference and Jury Trial by Raymond L.
Rogers. (McEnulty, Sean) (Entered: 08/29/2011)

08/29/2011

69

NOTICE OF CANCELLED HEARING: The status conference set on
August 31, 2011, at 1:00 p.m. as to Defendants Raymond L. Rogers and
David L. Hollis, III is cancelled. (This is a TEXT ENTRY ONLY. There

32

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

is no.pdf document associated with this entry.) (mss) (Entered:
08/29/2011)
08/30/2011

70

ORDER granting 68 Motion to Continue. Time excluded from
08/30/2011 as to Raymond L. Rogers (1). Signed by District Judge J.
Thomas Marten on 8/30/2011. (aa) (Entered: 08/30/2011)

08/30/2011

71

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Jury Trial RE-SET for 10/25/2011 at 9:00 AM in
Courtroom 238 (JTM) before District Judge J. Thomas Marten. Status
Conference RE-SET for 10/13/2011 at 3:30 PM in Courtroom 238
(JTM) before District Judge J. Thomas Marten, (mss) (Entered:
08/30/2011)

09/09/2011

72

ARREST WARRANT on Superseding Indictment returned executed on
12/1/10 as to Raymond L. Rogers (smg) (Entered: 09/09/2011)

09/30/2011

76

NOTICE OF EXPERT TESTIMONY pursuant to Rule 16(a)(1)(G) by
USA as to Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters
(Attachments: # I Attachment A, # 2 Attachment B)(Smith, Aaron)
(Entered: 09/30/2011)

10/13/2011

77

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 10/13/2011. (This is a TEXT ENTRY ONLY.
There is no.pdf document associated with this entry.) (mss) (Entered:
10/13/2011)

10/24/2011

79

ORDER FOR CONTINUANCE granting 78 Motion to Continue. Time
excluded from 10/24/2011 until 11/29/2011 as to David L. Hollis III (2).
Jury Trial set for 11/29/2011 at 09:00 AM in Courtroom 238 (JTM)
before District Judge J. Thomas Marten. Signed by District Judge J.
Thomas Marten on 10/24/2011. (aa) (Entered: 10/24/2011)

10/24/2011

80

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III. Status Conference set for 11/14/2011, at 03:00 PM
in Courtroom 238 before District Judge J. Thomas Marten, (jlw)
(Entered: 10/24/2011)

11/07/2011

81

DEMAND FOR NOTICE OF ALIBI DEFENSE by USA as to
Raymond L. Rogers (Smith, Aaron) (Entered: 11/07/2011)

11/07/2011

82

NOTICE OF EXPERT TESTIMONY pursuant to Rule 16(a)(1)(G) by
USA as to Raymond L. Rogers, David L. Hollis, III (Attachments: # !
Attachment A)(Smith, Aaron) (Entered: 11/07/2011)

11/08/2011

83

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Jury Trial RE-SET to commence on Monday,
November 28, 2011 at 9:00 AM in Courtroom 238 before District Judge
33

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

J. Thomas Marten. (This is a TEXT ENTRY ONLY. There is no.pdf
document associated with this entry.) (mss) (Entered: 11/08/2011)
11/14/2011

84

NOTICE OF EXPERT TESTIMONY pursuant to Rule 16(a)(1)(G) by
USA as to Raymond L. Rogers, David L. Hollis, III (Attachments: # i
Attachment A, # 2 Attachment B)(Smith, Aaron) (Entered: 11/14/2011)

11/14/2011

85

ENTRY OF APPEARANCE on behalf of USA by Lanny D. Welch
(Welch, Lanny) (Entered: 11/14/2011)

11/14/2011

86

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 11/14/2011. (Court Reporter Michelle Hancock.)
(This is a TEXT ENTRY ONLY. There is no.pdf document associated
with this entry.) (jlw) (Entered: 11/15/2011)

11/21/2011

87

RESPONSE by Raymond L. Rogers (McEnulty, Sean) (Entered:
11/21/2011)

11/28/2011

89

MOTION to Dismiss Indictment (First Superseding Indictment) by USA
as to Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters. (Smith,
Aaron) (Entered: 11/28/2011)

11/29/2011

91

ORDER granting 89 Motion to Dismiss Indictment as to Raymond L.
Rogers (1), David L. Hollis III (2), Shelan D. Peters (3). Signed by
District Judge J. Thomas Marten on 11/28/2011. (aa) (Entered:
11/29/2011)

11/30/2011

93

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: INSTRUCTIONS CONFERENCE as to Raymond L. Rogers
held on 11/30/2011. (Court Reporter Jana McKinney.) (This is a TEXT
ENTRY ONLY. There is no.pdf document associated with this entry.)
(mss) (Entered: 11/30/2011)

11/30/2011

96

MINUTE ORDER by deputy clerk directing that lunch be provided by
the clerk to the jury members during their deliberation. Entered by
deputy clerk on 11/30/2011. (This is a TEXT ENTRY ONLY. There is
no.pdf document associated with this entry.) (mss) (Entered:
11/30/2011)

12/01/2011

98

JURY INSTRUCTIONS as to Raymond L. Rogers, (mss) (Entered:
12/01/2011)

12/01/2011

99

ORAL MOTION for Acquittal by Raymond L. Rogers, (aa) (Entered:
12/01/2011)

12/01/2011

100

ORDER denying 99 Motion for Acquittal as to Raymond L. Rogers (1).
Signed by District Judge J. Thomas Marten on 12/1/2011. (aa) (Entered:
12/01/2011)

34

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

12/01/2011

101

WITNESS & EXHIBIT LIST by Raymond L. Rogers, (aa) (Entered:
12/01/2011)

12/01/2011

102

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: JURY TRIAL as to Raymond L. Rogers held on 12/1/2011.
Sentencing set for 2/15/2012 at 03:30 PM in Courtroom 238 (JTM)
before District Judge J. Thomas Marten. All exhibits returned to counsel.
Verdict of guilty to counts 1,2 and 3. (Court Reporter Jana McKinney.)
(aa) (Entered: 12/02/2011)

12/01/2011

103

JURY VERDICT as to Raymond L. Rogers (1) Guilty on Counts 1-3.
(aa) (Additional attachment(s) added on 3/17/2015: # I UNREDACTED
version) (cs). (Entered: 12/02/2011)

12/01/2011

104

QUESTIONS FROM THE JURY FILED as to Raymond L. Rogers.
(Attachments: # 1 Question 2, # 2 Question 3)(aa) (Additional
attachment(s) added on 3/17/2015: # 3 UNREDACTED version) (cs).
(Entered: 12/02/2011)

12/02/2011

105

NOTICE OF HEARING as to Defendant Raymond L. Rogers:
Sentencing set for 2/15/2012 at 3:30 PM in Courtroom 238 (JTM) before
District Judge J. Thomas Marten, (mss) (Entered: 12/02/2011)

01/26/2012

108

MOTION to Continue Sentencing Date and Motion to Continue The
Defendant's Presentence Investigation Reports Response/Objection Date
by Raymond L. Rogers. (McEnulty, Sean) (Entered: 01/26/2012)

01/27/2012

109

NOTICE OF HEARING as to Defendant Raymond L. Rogers:
Sentencing RE-SET for 4/16/2012 at 10:00 AM in Courtroom 238
(JTM) before District Judge J. Thomas Marten, (mss) (Entered:
01/27/2012)

01/27/2012

110

ORDER sustaining 108 Motion to Continue as to Raymond L. Rogers
(1). See order for details. Signed by District Judge J. Thomas Marten on
1/27/2012. (aa) (Entered: 01/27/2012)

04/04/2012

117

PRESENTENCE INVESTIGATION REPORT as to Raymond L.
Rogers
(NOTE: Access to this document is restricted to the USA and this
defendant.)
(USPO) (Entered: 04/04/2012)

04/15/2012

118

OBJECTION TO Presentence Report by Raymond L. Rogers
(McEnulty, Sean) (Entered: 04/15/2012)

04/16/2012

119

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: SENTENCING HEARING held on 4/16/2012 as to defendant
35

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Raymond L. Rogers. (Court Reporter Jana McKinney.) (This is a TEXT
ENTRY ONLY. There is no.pdf document associated with this entry.)
(mss) (Entered: 04/16/2012)
04/17/2012

120

JUDGMENT as to Raymond L. Rogers (1): 234 Months Imprisonment
(Count 1: 150 months, Count 2: 84 months to run consecutive to counts
1 & 3, Count 3: 120 months to run concurrent to counts 1 & 2); 5 Years
Supervised Release (Counts 1 & 3: 3 years each count, to run concurrent
to each other, Count 2: 5 years to run concurrent to counts 1 & 3); $300
Assessment. Signed by District Judge J. Thomas Marten on 4/16/2012.
(aa) (Entered: 04/17/2012)

04/17/2012

121

STATEMENT OF REASONS as to Raymond L. Rogers re 120
Judgment.
(NOTE: Access to this document is restricted to the USA and this
defendant.)
(aa) (Entered: 04/17/2012)

05/01/2012

122

NOTICE OF APPEAL TO 10CCA as to defendant Raymond L. Rogers
(McEnulty, Sean) (Entered: 05/01/2012)

05/02/2012

123

PRELIMINARY RECORD ON APPEAL transmitted to 10CCA as to
Raymond L. Rogers re 122 Notice of Appeal - Final Judgment.
(Attachments: # 1 Preliminary Packet)(aa) (Entered: 05/02/2012)

05/02/2012

124

APPEAL DOCKETED in 10CCA on 05/02/2012 and assigned Appeal
No. 12-3125 re 122 Notice of Appeal - Final Judgment filed by
Raymond L. Rogers. Transcript order form, designation of record and
docketing statement due 05/16/2012 for Raymond L. Rogers. Notice of
appearance due on 05/16/2012 for Raymond L. Rogers and United
States of America, (aa) (Entered: 05/04/2012)
APPEAL FEE STATUS: filing fee waived re: Notice of Appeal - Final
Judgment 122 on behalf of Defendant Raymond L. Rogers. (THIS IS A
TEXT ONLY ENTRY-NO DOCUMENT IS ASSOCIATED WITH
THIS TRANSACTION) (aa) (Entered: 05/03/2012)

05/03/2012

05/17/2012

125

TRANSCRIPT ORDER FORM: Transcript Requested Jury Trial
11/28/11 to 11/30/11 re 122 Notice of Appeal - Final Judgment filed by
Raymond L. Rogers (McEnulty, Sean) (Entered: 05/17/2012)

05/17/2012

126

TRANSCRIPT ORDER FORM: Transcript Requested Jury Trial
11/29/11 Morning Only re 122 Notice of Appeal - Final Judgment filed
by Raymond L. Rogers (McEnulty, Sean) (Entered: 05/17/2012)

05/24/2012

127

TRANSCRIPT ORDER FORM by Court Reporter Jana McKinney
ordering transcripts of Jury Trial re 122 Notice of Appeal - Final
36

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Judgment filed by Raymond L. Rogers (Appeal No. 12-3125) Transcript
due by 7/5/2012. (jlh) (Entered: 05/24/2012)
06/01/2012

128

CERTIFICATE OF FILING OF TRANSCRIPT by Court Reporter Jo
Wilkinson (jw) (Entered: 06/01/2012)

06/01/2012

129

TRANSCRIPT of Trial Volume 2 held November 29, 2011, as to
Raymond L. Rogers before Judge J. Thomas Marten, Court Reporter Jo
Wilkinson, 316-315-4334, jo_wilkinson@ksd.uscourts.gov. Transcript
purchased by: Mr. Sean C. McEnulty. Volume: 2.
NOTICE RE REDACTION OF TRANSCRIPTS: Within 7 calendar
days of this filing, each party shall inform the Court, by filing a
Notice of Intent to Redact, of the party's intent to redact personal
data identifiers from the electronic transcript of the court
proceeding. The policy is located on our website at
www.ksd.uscourts.gov. Please read this policy carefully. If no Notice
of Intent to Redact is filed within the allotted time, this transcript
will be made electronically available on the date set forth below.
Transcript may be viewed at the court public terminal or purchased
through the Court Reporter/Transcriber before the deadline for Release
of Transcript Restriction. After that date it may be obtained through
PACER. Release of Transcript Restriction set for 8/30/2012. (jw)
(Entered: 06/01/2012)

06/05/2012

130

DESIGNATION OF RECORD ON APPEAL by Raymond L. Rogers re
122 Notice of Appeal - Final Judgment (Appeal No. 12-3125)
(Attachments: # 1 District Court Docket Sheet)(McEnulty, Sean)
(Entered: 06/05/2012)

06/11/2012

131

TRANSCRIPT of Trial Volume 1 held November 28, 2011 as to
Raymond L. Rogers before Judge J. Thomas Marten, Court Reporter
Jana McKinney, 316-315-4314, jana_mckinney@ksd.uscourts.gov.
Transcript purchased by: Mr. Sean McEnulty. Volume: 1.
NOTICE RE REDACTION OF TRANSCRIPTS: Within 7 calendar
days of this filing, each party shall inform the Court, by filing a
Notice of Intent to Redact, of the party's intent to redact personal
data identifiers from the electronic transcript of the court
proceeding. The policy is located on our website at
www.ksd.uscourts.gov. Please read this policy carefully. If no Notice
of Intent to Redact is filed within the allotted time, this transcript
will be made electronically available on the date set forth below.
Transcript may be viewed at the court public terminal or purchased
through the Court Reporter/Transcriber before the deadline for Release
37

r
Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

of Transcript Restriction. After that date it may be obtained through
PACER. Release of Transcript Restriction set for 9/10/2012. (jlh)
(Entered: 06/11/2012)
06/11/2012

132

TRANSCRIPT of Trial Volume 2B held November 29,2011 as to
Raymond L. Rogers before Judge J. Thomas Marten, Court Reporter
Jana McKinney, 316-315-4314, jana_mckinney@ksd.uscourts.gov.
Transcript purchased by: Mr. Sean McEnulty. Volume: 2B.
NOTICE RE REDACTION OF TRANSCRIPTS: Within 7 calendar
days of this filing, each party shall inform the Court, by filing a
Notice of Intent to Redact, of the party's intent to redact personal
data identifiers from the electronic transcript of the court
proceeding. The policy is located on our website at
www.ksd.uscourts.gov. Please read this policy carefully. If no Notice
of Intent to Redact is filed within the allotted time, this transcript
will be made electronically available on the date set forth below.
Transcript may be viewed at the court public terminal or purchased
through the Court Reporter/Transcriber before the deadline for Release
of Transcript Restriction. After that date it may be obtained through
PACER. Release of Transcript Restriction set for 9/10/2012. (jlh)
(Entered: 06/11/2012)

06/11/2012

133

TRANSCRIPT of Trial Volume 3 held November 30, 2011 as to
Raymond L. Rogers before Judge J. Thomas Marten, Court Reporter
Jana McKinney, 316-315-4314, jana_mckinney@ksd.uscourts.gov.
Transcript purchased by: Mr. Sean McEnulty. Volume: 3.
NOTICE RE REDACTION OF TRANSCRIPTS: Within 7 calendar
days of this filing, each party shall inform the Court, by filing a
Notice of Intent to Redact, of the party's intent to redact personal
data identifiers from the electronic transcript of the court
proceeding. The policy is located on our website at
www.ksd.uscourts.gov. Please read this policy carefully. If no Notice
of Intent to Redact is filed within the allotted time, this transcript
will be made electronically available on the date set forth below.
Transcript may be viewed at the court public terminal or purchased
through the Court Reporter/Transcriber before the deadline for Release
of Transcript Restriction. After that date it may be obtained through
PACER. Release of Transcript Restriction set for 9/10/2012. (jlh)
(Entered: 06/11/2012)

06/11/2012

134

CERTIFICATE OF FILING OF TRANSCRIPT by Court Reporter Jana
McKinney (jlh) (Entered: 06/11/2012)

38

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

07/12/2012

135

RECORD ON APPEAL transmitted to 10CCA electronically as to
Raymond L. Rogers, Volume(s) 3, re 122 Notice of Appeal - Final
Judgment. (Appeal No. 12-3125) (aa) (Entered: 07/12/2012)

09/11/2012

136

TRANSCRIPT ORDER FORM: Transcript Requested Sentencing
Proceedings Held on 04/16/12 re 122 Notice of Appeal - Final Judgment
filed by Raymond L. Rogers (McEnulty, Sean) (Entered: 09/11/2012)

09/14/2012

137

ORDER of 10CCA as to Raymond L. Rogers re 122 Notice of Appeal Final Judgment. Order granting leave to supplement the record on
appeal. Supplemental record on appeal due 09/24/2012 for Timothy M.
O'Brien (KSwi), Clerk of Court. In light of the outstanding transcript, the
9/20/12 due date for the appellant's brief is vacated. Appellant's opening
brief shall be served and filed within 30 day of filing of the supplemental
record. Served on 09/14/2012. (Appeal No. 12-3125) (aa) (Entered:
09/17/2012)

09/20/2012

138

TRANSCRIPT ORDER FORM by Court Reporter Jana McKinney
ordering transcripts of Sentencing re 122 Notice of Appeal - Final
Judgment filed by Raymond L. Rogers. (Appeal No. 12-3125)
Transcript due by 10/12/2012. (aa) (Entered: 09/21/2012)

10/03/2012

139

TRANSCRIPT of Sentencing held April 16,2012 as to Raymond L.
Rogers before Judge J. Thomas Marten, Court Reporter Jana McKinney,
316-315-4314, jana_mckinney@ksd.uscourts.gov. Transcript purchased
by: Mr. Sean McEnulty.
NOTICE RE REDACTION OF TRANSCRIPTS: Within 7 calendar
days of this filing, each party shall inform the Court, by filing a
Notice of Intent to Redact, of the party's intent to redact personal
data identifiers from the electronic transcript of the court
proceeding. The policy is located on our website at
www.ksd.uscourts.gov. Please read this policy carefully. If no Notice
of Intent to Redact is filed within the allotted time, this transcript
will be made electronically available on the date set forth below.
Transcript may be viewed at the court public terminal or purchased
through the Court Reporter/Transcriber before the deadline for Release
of Transcript Restriction. After that date it may be obtained through
PACER. Release of Transcript Restriction set for 1/2/2013. (jlh)
(Entered: 10/03/2012)

10/03/2012

140

CERTIFICATE OF FILING OF TRANSCRIPT by Court Reporter Jana
McKinney (jlh) (Entered: 10/03/2012)

10/04/2012

141

SUPPLEMENTAL RECORD ON APPEAL transmitted to 10CCA as to
Raymond L. Rogers re 122 Notice of Appeal - Final Judgment. (Appeal
No. 12-3125) (aa) (Entered: 10/04/2012)
39

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

04/29/2013

142

MANDATE from 10CCA: affirming decision of the District Court as to
Raymond L. Rogers. (Appeal No. 12-3125) (Attachments: # l Mandate
issued letter)(aa) (Entered: 04/29/2013)

06/14/2013

143

MOTION to Withdraw Sean C. McEnulty as Attorney by Raymond L.
Rogers, (aa) (Entered: 06/14/2013)

06/14/2013

144

MOTION FOR FREE DOCUMENTS by Raymond L. Rogers, (aa)
(Entered: 06/14/2013)

06/19/2013

145

ORDER. Pursuant to the Tenth Circuit's Mandate (Dkt. 142) affirming
the district court's verdict, the court denies as moot Motion to Withdraw
Sean C. McEnulty (Dkt. 143) and denies as moot Motion for Free
Documents as Mr. McEnulty has provided the trial and sentencing
transcripts and discovery to Mr. Rogers. Entered by District Judge J.
Thomas Marten on 6/19/2013. Mailed to pro se party Raymond L.
Rogers by regular mail. (This is a TEXT ENTRY ONLY. There is
no.pdf document associated with this entry.) (mss) (Entered:
06/19/2013)

12/02/2013

146

MOTION to Vacate under 28 U.S.C. 2255 by Raymond L. Rogers,
(smg)
Civil case 6:13-cv-01448-JTM opened. (Entered: 12/03/2013)

12/02/2013

147

MEMORANDUM IN SUPPORT of M6 MOTION to Vacate under 28
U.S.C. 2255 by Raymond L. Rogers as to Raymond L. Rogers, (smg)
(Entered: 12/03/2013)

12/16/2013

148

SUPPLEMENT to 146 Motion to Vacate under 28 U.S.C. 2255 by
Raymond L. Rogers, (smg) Modified to correct title on 12/16/2013
(smg). (Entered: 12/16/2013)

01/08/2014

149

MOTION for Extension of Time to File Response as to 146 MOTION to
Vacate under 28 U.S.C. 2255 by USA as to Raymond L. Rogers .
(Welch, Lanny) Modified on 1/9/2014 to correct filing event and text
(aim). (Entered: 01/08/2014)

01/09/2014

150

ORDER granting 149 plaintiffs Motion for Extension of Time to
February 7,2014 to respond to Raymond L. Rogers' Motion to Vacate.
Signed by District Judge J. Thomas Marten on 1/9/2014. Mailed to pro
se party Raymond L. Rogers by regular mail, (mss) (Entered:
01/09/2014)

02/06/2014

151

MOTION for Extension of Time to File Response/Reply to Def.'s 2255
Motion by USA as to Raymond L. Rogers. (Brown, James) (Entered:
02/06/2014)

02/06/2014

152

ORDER granting 151 plaintiffs Motion for Extension of Time to March
7, 2014 to respond to defendant Rogers' Motion to Vacate. Signed by
40

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

District Judge J. Thomas Marten on 2/6/2014. Mailed to pro se party
Raymond L. Rogers by regular mail, (mss) (Entered: 02/06/2014)
03/06/2014

153

MOTION for Extension of Time to File Response/Reply to Def.'s 2255
Motion by USA as to Raymond L. Rogers. (Brown, James) (Entered:
03/06/2014)

03/06/2014

154

ORDER granting 153 government's Motion for Extension of Time to
April 7, 2014 to respond to defendant's 2255 motion. Entered by District
Judge J. Thomas Marten on 3/6/14. Mailed to pro se party Raymond L.
Rogers by regular mail, (mss) (Entered: 03/06/2014)

03/18/2014

155

SUPPLEMENT TO 146 MOTION to Vacate under 28 U.S.C. 2255 by
Raymond L. Rogers, (smg) Modified on 3/18/2014 to correct title (aa).
(Entered: 03/18/2014)

04/07/2014

156

RESPONSE TO MOTION by USA as to Raymond L. Rogers re 148
MOTION to Vacate under 28 U.S.C. 2255, 146 MOTION to Vacate
under 28 U.S.C. 2255,155 MOTION to Vacate under 28 U.S.C. 2255
(Attachments: # \ Exhibit)(Brown, James) (Entered: 04/07/2014)

05/14/2014

157

REPLY TO RESPONSE to Motion by Raymond L. Rogers re 146
MOTION to Vacate under 28 U.S.C. 2255. (smg) (Entered: 05/14/2014)

05/27/2014

158

MOTION to Amend 146 MOTION to Vacate under 28 U.S.C. 2255
filed by Raymond L. Rogers, (smg) (Entered: 05/28/2014)

06/06/2014

159

ORDER. The court grants petitioner Raymond L. Rogers's Motion to
Amend (Dkt. 158). No response from the government is necessary.
Entered by Chief Judge J. Thomas Marten on 6/6/14. Mailed to pro se
party Raymond L. Rogers by regular mail. (This is a TEXT ENTRY
ONLY. There is no.pdf document associated with this entry.) (mss)
(Entered: 06/06/2014)

10/09/2014

160

MOTION FOR SUMMARY JUDGMENT ON PETITIONER 2255
MOTION TO VACATE, SET ASIDE, OR CORRECT A SENTENCE
BY A PERSON IN FEDERAL CUSTODY PURSUANT TO
FEDERAL RULES OF CIVIL PROCEDURE RULE 56 by Raymond L.
Rogers, (aa) (Entered: 10/10/2014)

10/30/2014

161

RESPONSE TO MOTION by USA as to Raymond L. Rogers re 160
MOTION for Additional Relief (Welch, Lanny) (Entered: 10/30/2014)

12/09/2014

162

MEMORANDUM AND ORDER denying 146 Motion to Vacate (2255)
as to Raymond L. Rogers (1); and denying 160 Motion for Summary
Judgment as to Raymond L. Rogers (1). Signed by Chief Judge J.
Thomas Marten on 12/9/14. Mailed to pro se party Raymond L. Rogers
by regular mail, (mss)
Civil Case 6:13-cv-01448-JTM closed. (Entered: 12/09/2014)
41

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

12/23/2014

163

MOTION for Certificate of Appealability by Raymond L. Rogers, (aa)
(Entered: 12/23/2014)

12/29/2014

164

MEMORANDUM AND ORDER denying 163 Motion for Certificate of
Appealability as to Raymond L. Rogers (1). Signed by Chief Judge J.
Thomas Marten on 12/29/14. Mailed to pro se party Raymond L. Rogers
by regular mail, (mss) (Entered: 12/29/2014)

01/20/2015

165

NOTICE OF APPEAL TO 10CCA by Raymond L. Rogers re 162 Order
on Motion to Vacate (2255)(cs) (Entered: 01/21/2015)

01/21/2015

166

PRELIMINARY RECORD ON APPEAL transmitted to 10CCA as to
Raymond L. Rogers re 165 Notice of Appeal (Attachments: # !
Preliminary Packet)(cs) (Entered: 01/21/2015)

01/21/2015

167

APPEAL DOCKETED in 10CCA on 01/21/2015 and assigned Appeal
No. 15-3013 re 165 Notice of Appeal filed by Raymond L. Rogers. Fee
and entry of appearance are due by 02/20/2015 for Raymond L. Rogers.
Notice of appearance due on 02/04/2015 for United States of America,
(aa) (Entered: 01/28/2015)

01/28/2015

APPEAL FEE STATUS: filing fee not paid re: Notice of Appeal 165 .
(THIS IS A TEXT ONLY ENTRY-NO DOCUMENT IS
ASSOCIATED WITH THIS TRANSACTION) (aa) (Entered:
01/28/2015)

03/05/2015

168

RECORD ON APPEAL transmitted to 10CCA electronically as to
Raymond L. Rogers, Volume 1, re 165 Notice of Appeal. ( Appeal No.
15-3013) (aa) (Entered: 03/05/2015)

04/17/2015

169

ORDER of 10CCA DISMISSING APPEAL as to Raymond L. Rogers re
165 Notice of Appeal. ( Appeal No. 15-3013) (aa) (Entered: 04/20/2015)

07/21/2015

170

LETTER FROM 10CCA advising petition for writ of certiorari filed re
165 Notice of Appeal; assigned Supreme Court No. 15-5261 as to
Raymond L. Rogers. ( Appeal No. 15-3013) (aa) (Entered: 07/22/2015)

08/17/2015

171

MOTION to Produce by Raymond L. Rogers, (aa) (Entered:
08/17/2015)

09/09/2015

172

RESPONSE TO MOTION by USA as to Raymond L. Rogers re 171
MOTION to Produce (Welch, Lanny) (Entered: 09/09/2015)

09/15/2015

173

MEMORANDUM AND ORDER denying 171 Motion to Produce as to
Raymond L. Rogers (1). Signed by Chief Judge J. Thomas Marten on
09/14/2015. (aa) (Entered: 09/15/2015)

09/15/2015

NOTICE Re: Pro Se Mailing. Document 173 Order on Motion to
Produce mailed on 9/15/2015 to Raymond L. Rogers by regular mail,
(aa) (Entered: 09/15/2015)
42

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

10/05/2015

174

LETTER FROM 10CCA advising petition for writ of certiorari denied re
165 Notice of Appeal; assigned Supreme Court No. 15-5261 as to
Raymond L. Rogers. (Appeal No. 15-3013) (aa) (Entered: 10/07/2015)

11/06/2015

175

MOTION FOR RELIEF FROM A JUDGMENT OR ORDER by
Raymond L. Rogers, (aa) (Entered: 11/06/2015)

11/18/2015

176

ENTRY OF APPEARANCE on behalf of USA by James A. Brown
(Brown, James) (Entered: 11/18/2015)

11/20/2015

177

MOTION to Amend/Correct 146 MOTION to Vacate under 28 U.S.C. _
2255 filed by Raymond L. Rogers, (aa) (Entered: 11/20/2015)

12/23/2015

178

MEMORANDUM AND ORDER denying 175 Motion for relief from a
judgment or order pursuant to Fed. R. Civ. P. 60(b)(4) as to Raymond L.
Rogers (1). The court declines to issue a certificate of appealability.
Signed by Chief Judge J. Thomas Marten on 12/23/2015. (aa) (Entered:
12/23/2015)
NOTICE Re: Pro Se Mailing. Document 178 Order on Motion to
Vacate, mailed on 12/23/2015 to Raymond L. Rogers by regular mail,
(aa) (Entered: 12/23/2015)

12/23/2015

01/11/2016

179

MOTION for Reconsideration re 178 MEMORANDUM AND ORDER
denying Motion for relief from a Judgment or Order pursuant to Fed. R.
Civ. P. 60(b)(4), by Raymond L. Rogers, (sz) Modified on 1/12/2016 to
correct docket entry relationship (aa). (Entered: 01/11/2016)

03/08/2016

180

ORDER denying as moot 177 Motion to Amend/Correct as to Raymond
L. Rogers (1) Signed by Chief Judge J. Thomas Marten on
03/08/16.Mailed to pro se party Raymond L. Rogers, P.O. Box 3000,
Forrest City, AR 72336 by regular mail (This is a TEXT ENTRY
ONLY. There is no.pdf document associated with this entry.) (Roach,
Joyce) (Entered: 03/08/2016)

03/09/2016

181

ORDER DENYING RECONSIDERATION denying 179 Motion for
Reconsideration as to Raymond L. Rogers (1). Signed by Chief Judge J.
Thomas Marten on 03/09/2016. (aa) (Entered: 03/09/2016)
NOTICE Re: Pro Se Mailing. Document 181 Order on Motion for
Reconsideration mailed on 3/9/2016 to Raymond Rogers at Forrest City
- FCI by regular mail, (aa) (Entered: 03/09/2016)

03/09/2016

03/21/2016

182

NOTICE OF APPEAL TO 10CCA by Raymond L. Rogers re 178 Order
on Motion to Vacate, 180 Order on Motion to Amend/Correct, 181
Order on Motion for Reconsideration, (aa) (Entered: 03/21/2016)

03/21/2016

183

MOTION for Certificate of Appealability by Raymond L. Rogers, (aa)
(Entered: 03/21/2016)

43

Case 6:10-cr- 10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

03/21/2016

184

(NOTE: Access to document is restricted pursuant to the courts
privacy policy.)
MOTION for Leave to Appeal In Forma Pauperis by Raymond L.
Rogers, (aa) (Entered: 03/21/2016)

03/21/2016

185

PRELIMINARY RECORD ON APPEAL transmitted to 10CCA as to
Raymond L. Rogers re 182 Notice of Appeal. (Attachments: # !
Preliminary Packet)(aa) (Entered: 03/21/2016)

03/22/2016

186

APPEAL DOCKETED in 10CCA on 03/22/2016 and assigned Appeal
No. 16-3055 re 182 Notice of Appeal filed by Raymond L. Rogers.
Notice of appearance due on 04/21/2016 for Raymond L. Rogers and on
04/05/2016 for United States of America. Order on pending IFP motion
due 04/21/2016. (aa) (Entered: 03/25/2016)

03/31/2016

187

ORDER denying 183 Motion for Certificate of Appealability as to
Raymond L. Rogers (1); denying 184 Motion for Leave to Appeal In
Forma Pauperis as to Raymond L. Rogers (1). Signed by Chief Judge J.
Thomas Marten on 03/31/2016. (aa) (Entered: 03/31/2016)
NOTICE Re: Pro Se Mailing. Document 187 Order on Motion for
Certificate of Appealability, Order on Motion for Leave to Appeal In
Forma Pauperis mailed on 3/31/2016 to Raymond L. Rogers by regular
mail, (aa) (Entered: 03/31/2016)

03/31/2016

04/13/2016

188

04/13/2016

RECORD ON APPEAL transmitted to 10CCA electronically as to
Raymond L. Rogers, Volume(s) 2, re 182 Notice of Appeal. ( Appeal
No. 16-3055) (aa) (Entered: 04/13/2016)
NOTICE Re: Pro Se Mailing. Document 188 Record on Appeal Sent to
10CCA mailed on 4/13/2016 to Raymond L. Rogers at Forrest City by
regular mail, (aa) (Entered: 04/13/2016)

07/20/2016

189

ORDER DENYING CERTIFICATE OF APPEALABILITY as to
Raymond L. Rogers. (Appeal No. 16-3055) (aa) (Entered: 07/25/2016)

11/15/2016

190

LETTER FROM 10CCA advising petition for writ of certiorari filed re
182 Notice of Appeal; assigned Supreme Court No. 16-6834 as to
Raymond L. Rogers. (Appeal No. 16-3055) (aa) (Entered: 11/15/2016)

01/09/2017

191

LETTER FROM 10CCA advising petition for writ of certiorari denied re
182 Notice of Appeal; assigned Supreme Court No. 16-6834 as to
Raymond L. Rogers. ( Appeal No. 16-3055) (aa) (Entered: 01/10/2017)

02/28/2017

192

LETTER FROM 10CCA advising re 182 Notice of Appeal; assigned
Supreme Court No. 16-6834 as to Raymond L. Rogers. The Court today
entered the following order in the above-entitled case: The petition for
rehearing is denied. (Appeal No. 16-3055) (aa) (Entered: 02/28/2017)
44

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

03/24/2017

193

LETTER FROM 10CCA as to Raymond L. Rogers re Petition for writ
of mandamus filed, c/s: y Fee or ifp forms due for 10th Circuit by
05/02/2017 for Raymond L. Rogers. (Appeal No. 17-3063) (sz)
(Entered: 03/24/2017)

04/14/2017

194

ORDER of 10CCA as to Raymond L. Rogers denying petition for writ
of mandamus. (Appeal No. 17-3063) (aa) (Entered: 04/18/2017)

05/16/2017

195

LETTER FROM 10CCA advising petition for writ of certiorari filed re
182 Notice of Appeal; assigned Supreme Court No. 16-9152 as to
Raymond L. Rogers. (Appeal No. 17-3063) (aa) (Entered: 05/17/2017)

06/19/2017

196

LETTER FROM 10CCA advising petition for writ of certiorari denied;
assigned Supreme Court No. 16-9152 as to Raymond L. Rogers. (
Appeal No. 17-3063) (aa) (Entered: 06/20/2017)

10/10/2018

198

SERVICE BY PUBLICATION filed by USA as to Raymond L. Rogers,
David L. Hollis, III, Shelan D. Peters. Last publication date August 29,
2018. (Attachments: # 1 Attachment l)(Gumey, Annette) (Entered:
10/10/2018)

10/10/2018

199

RETURN OF SERVICE of Notice of Forfeiture Served on the FBI as to
Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters (Gurney,
Annette) (Entered: 10/10/2018)

11/19/2018

200

MOTION to Vacate under 28 U.S.C. 2255 by Raymond L. Rogers, (aa)
Civil case 6:18-cv-01322-JWB opened. (Entered: 11/20/2018)

11/20/2018

MINUTE ORDER REASSIGNING CASE: Case reassigned to District
Judge John W. Broomes as to Raymond L. Rogers for all further
proceedings. District Judge J. Thomas Marten no longer assigned to
case. Signed by deputy clerk on 11/19/2018. (This is a TEXT ENTRY
ONLY. There is no.pdf document associated with this entry.) (aa)
(Entered: 11/20/2018)

11/21/2018

NOTICE re Pro Se Mailing: Order Reassigning Case mailed on
11/21/2018 to Raymond L. Rogers at Forrest City FCI by regular mail,
(mam) (Entered: 11/21/2018)

12/13/2018

201

MEMORANDUM AND ORDER dismissing 200 Motion to Vacate
(2255) for lack ofjurisdiction as to Raymond L. Rogers (1). An appeal
from a final order on a § 2255 may not be taken absent a certificate of
appealability, which may issue only if a petitioner has made a substantial
showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2).
The court concludes Defendant has failed to make such a showing and
accordingly a certificate of appealability is DENIED. Signed by District
Judge John W. Broomes on 12/13/2018. Mailed to pro se party
Raymond L. Rogers at Forrest City FCI by regular mail, (mam)
Civil Case 6:18-cv-01322-JWB closed. (Entered: 12/13/2018)
45

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

12/26/2018

202

MOTION for Certificate of Appealability pursuant to USC § 2253(c) by
Raymond L. Rogers, (mam) (Entered: 12/26/2018)

01/11/2019

203

NOTICE OF APPEAL TO 10CCA by Raymond L. Rogers re 201 Order
on Motion to Vacate (2255). (sz) (Entered: 01/11/2019)

01/11/2019

204

PRELIMINARY RECORD ON APPEAL transmitted to 10CCA as to
Raymond L. Rogers re 203 Notice of Appeal. Letter mailed to
Defendant by regular USPS mail. (Attachments: # \ Preliminary
Packet)(sz) (Entered: 01/11/2019)
APPEAL FEE STATUS: filing fee not paid re: Notice of Appeal 203 on
behalf of Defendant Raymond L. Rogers. CJA 23 filed on 12/6/2010.
Motion to Proceed In Forma Pauperis filed on 3/21/16 but was denied.
(THIS IS A TEXT ONLY ENTRY-NO DOCUMENT IS
ASSOCIATED WITH THIS TRANSACTION) (sz) (Entered:
01/11/2019)

01/11/2019

01/11/2019

205

ORDER denying 202 Motion for Certificate of Appealability as to
Raymond L. Rogers (1) for reasons previously stated in the court's
Memorandum and Order (Doc. 201). Entered by District Judge John W.
Broomes on 01/11/2019.Mailed to pro se party Raymond Rogers by
regular mail (This is a TEXT ENTRY ONLY. There is no.pdf document
associated with this entry.) (jmr) (Entered: 01/11/2019)

01/11/2019

206

APPEAL DOCKETED in 10CCA on 1/11/2019 and assigned Appeal
No. 19-3012 re 203 Notice of Appeal filed by Raymond L. Rogers,
(mam) (Entered: 01/14/2019)

01/28/2019

207

(NOTE: Access to document is restricted pursuant to the courts
privacy policy.)
MOTION for Leave to Appeal In Forma Pauperis by Raymond L.
Rogers, (mam) (Entered: 01/28/2019)

02/20/2019

208

MEMORANDUM AND ORDER denying 207 Motion for Leave to
Appeal In Forma Pauperis as to Raymond L. Rogers (1). In accordance
with Fed. R. App. P. 24(a)(4), the Clerk of the Court shall immediately
notify the parties and the Tenth Circuit Court of Appeals of this order.
Pursuant to Fed. R. App. P. 24(a)(5), Defendant may file a motion to
proceed on appeal IFP in the Tenth Circuit Court of Appeals within
thirty days after service of the aforementioned notice. Signed by District
Judge John W. Broomes on 2/20/2019. Mailed to pro se party Raymond
L. Rogers at Forrest City FCI by regular mail, (mam) (Entered:
02/20/2019)

02/22/2019

209

RECORD ON APPEAL retrieved by 10CCA as to Raymond L. Rogers
re 203 Notice of Appeal. (Appeal No. 19-3012) (This is a TEXT

46

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

ENTRY ONLY. There is no.pdf document associated with this entry.)
(mam) (Entered: 02/25/2019)
04/15/2019

210

ORDER of 10CCA DENYING CERTIFICATE OF APPEALABILITY
AND DISMISSING APPEAL re 203 Notice of Appeal. (Appeal No. 193012) (mam) (Entered: 04/15/2019)

U.S. District Court
DISTRICT OF KANSAS (Wichita)
CRIMINAL DOCKET FOR CASE #: 6:10-cr-10186-JWB-2

Case title: USA v. Rogers et al
Magistrate judge case number: 6:10-mj-06187-KGG

Date Filed: 12/07/2010
Date Terminated: 02/22/2012

Assigned to: District Judge John W.
Broomes
Defendant (2)
David L. Hollis, III
TERMINATED: 02/22/2012

represented by Charles A. O’Hara
O'Hara & O'Hara, LLC
1223 East First Street
Wichita, KS 67214
316-263-5601
Fax: 316-263-7205
Email: ohara@oharaohara.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Designation: Retained

Pending Counts

Disposition

18:924(c)(l)(A) - Possession of
firearm in furtherance of a crime of
violence and 18:2 - Aiding and
abetting (SUPERSEDING
INDICTMENT 06/21/2011)
(2s)

7 years imprisonment, said term to
run concurrently to the sentence
imposed in Sedgwick County
District Court Case No. 10CR623; 3
years supervised release; $100.00
Assessment

Highest Offense Level (Opening)
47

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Felony
Terminated Counts

Disposition

18:2113(a) - Bank robbery by force
or violence and 18:2 - Aiding and
abetting (INDICTMENT
12/07/2010)

Dismissed

0)
18:2113(a) - Bank robbery and 18:2
- Aiding and abetting
(SUPERSEDING INDICTMENT
06/21/2011)
(Is)

Dismissed

18:924(c)(l)(A) - Possessing and
brandishing a firearm in furtherance
of a crime of violence and 18:2 Aiding and abetting (INDICTMENT
12/07/2010)

Dismissed

(2)

18:922(g)(l) and 924(a)(2) - Felon in
possession of a firearm and 18:2 Aiding and abetting (INDICTMENT
12/07/2010)

Dismissed

(3)

18:922(g)(l) and 924(a)(2) - Felon in
possession of a firearm and 18:2 Aiding and abetting
(SUPERSEDING INDICTMENT
06/21/2011)

Dismissed

(3s)

Highest Offense Level
(Terminated)
Felony
Disposition

Complaints
18:2113(a) - Bank robbery;
18:924(c)(l)(A) - Possession and
brandishing a firearm in furtherance
of a crime of violence, and 18:2 Aiding and abetting.

48

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Plaintiff
USA

represented by Aaron L. Smith
Office of United States Attorney —
Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812
316-269-6561
Fax: 316-269-6484
Email: aaron.smith3@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Annette B. Gurney
Office of United States Attorney Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812
316-269-6481
Fax: 316-269-6484
Email: annette.gumey@usdoj.gov
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
James A. Brown
Office of United States Attorney Topeka
290 US Courthouse
444 SE Quincy
Topeka, KS 66683-3592
785-295-2850
Fax: 785-295-2853
Email: james.brown2@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Lanny D. Welch
Office of United States Attorney Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812
316-269-6481
Fax: 316-269-6484
Email: lanny.welch@usdoj.gov

49

Case 6:10-cr- 10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

LEAD ATTORNEY
A TTORNEY TO BE NOTICED

Date Filed

Docket Text

#

12/03/2010

1

COMPLAINT as to Raymond L. Rogers (1), David L. Hollis, III (2),
Shelan D. Peters (3). (adw) [6:10-mj-06187-KGG] (Entered:
12/03/2010)

12/06/2010

2

ENTRY OF APPEARANCE: by attorney Charles A. O'Hara appearing
for David L. Hollis, III (O’Hara, Charles) [6:10-mj-06187-KGG]
(Entered: 12/06/2010)

12/06/2010

ARREST of David L. Hollis, III. (aim) [6:10-mj-06187-KGG] (Entered:
12/06/2010)

12/06/2010

7

MINUTE ENTRY for proceedings held before Magistrate Judge
Kenneth G. Gale: RULE 5/INITIAL APPEARANCE as to David L.
Hollis, III held on 12/6/2010. Detention Hearing set for 12/10/2010 at
01:30 PM in Courtroom 406 (KGG) before Magistrate Judge Kenneth G.
Gale. Preliminary Hearing set for 12/20/2010 at 09:00 AM in Courtroom
406 (KGG) before Magistrate Judge Kenneth G. Gale. (Tape #1:391:45.) (aim) [6:10-mj-06187-KGG] (Entered: 12/06/2010)

12/06/2010

8

ORDER OF TEMPORARY DETENTION as to David L. Hollis, III.
Signed by Magistrate Judge Kenneth G. Gale on 12/6/10. (aim) [6:10mj-06187-KGG] (Entered: 12/06/2010)

12/07/2010

11

Arrest WARRANT returned executed on 12/6/2010 as to David L.
Hollis, III. (adw) [6:10-mj-06187-KGG] (Entered: 12/08/2010)

12/07/2010

12

INDICTMENT as to Raymond L. Rogers (1) count(s) 1, 2, 3, David L.
Hollis, III (2) count(s) 1, 2, 3, Shelan D. Peters (3) count(s) 1,2, 3. (aa)
(Entered: 12/08/2010)

12/07/2010

13

NOTICE by USA as to Raymond L. Rogers, David L. Hollis, III, Shelan
D. Peters, (aa) (Entered: 12/08/2010)

12/10/2010

19

ORDER OF DETENTION PENDING TRIAL as to David L. Hollis, III.
Signed by Magistrate Judge Kenneth G. Gale on 12/10/2010. (aa)
(Entered: 12/10/2010)

12/10/2010

20

MINUTE ENTRY for proceedings held before Magistrate Judge
Kenneth G. Gale: ARRAIGNMENT as to David L. Hollis III (2) Count
1,2,3 held on 12/10/2010. DETENTION HEARING as to David L.
Hollis, III held on 12/10/2010. The court granted the government's

50

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

motion for detention. Defendant's next appearance per scheduling order
before Judge Marten. (Tape #2:17-2:28.) (adw) (Entered: 12/13/2010)
12/14/2010

24

GENERAL ORDER OF DISCOVERY & SCHEDULING as to
Raymond L. Rogers, David L. Hollis, III, and Shelan D. Peters: Jury
Trial set for 2/15/2011 at 9:00 AM in Courtroom 238 before District
Judge J. Thomas Marten. Status Conference set for 2/3/2011 at 2:30 PM
in Courtroom 238 before District Judge J. Thomas Marten. Signed by
District Judge J. Thomas Marten on 12/14/10. (mss) (Entered:
12/14/2010)

01/21/2011

32

MOTION for order Granting Authority to Consume Physical Evidence
in Furtherance of the Investigation by USA as to Raymond L. Rogers,
David L. Hollis, III, Shelan D. Peters. (Smith, Aaron) (Entered:
01/21/2011)

01/24/2011

33

NOTICE OF HEARING re: 32 MOTION for order Granting Authority
to Consume Physical Evidence in Furtherance of the Investigation:
Responses shall be filed no later than February 4, 2011. A hearing is set
for 2/7/11 at 1:30 p.m. in Courtroom 238 before District Judge J.
Thomas Marten. (This is a TEXT ENTRY ONLY. There is no.pdf
document associated with this entry.) (mss) (Entered: 01/24/2011)

01/27/2011

35

DEMAND FOR NOTICE OF ALIBI DEFENSE by USA as to
Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters (Smith,
Aaron) (Entered: 01/27/2011)

02/02/2011

37

Joint MOTION to Continue time to file Defendants' Motions, Status
Conference and Jury Trial by David L. Hollis, III. (O'Hara, Charles)
(Entered: 02/02/2011)

02/03/2011

38

NOTICE OF CANCELLED HEARING: The status conference set on
February 3, 2011, at 2:30 p.m. as to Defendants Raymond L. Rogers and
David L. Hollis, III is cancelled. (This is a TEXT ENTRY ONLY. There
is no.pdf document associated with this entry.) (mss) (Entered:
02/03/2011)

02/07/2011

39

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: MOTION HEARING as to Raymond L. Rogers, David L.
Hollis, III, and Shelan D. Peters held on 2/7/2011. Counsel for defendant
Peters was present. Defendant Peters was not present. Order to follow.
(Court Reporter Jana Hoelscher.) (This is a TEXT ENTRY ONLY.
There is no.pdf document associated with this entry.) (mss) (Entered:
02/07/2011)

02/08/2011

40

ORDER granting 32 Motion for Order as to Raymond L. Rogers (1) and
David L. Hollis III (2). Signed by District Judge J. Thomas Marten on
2/7/2011. (aim) (Entered: 02/08/2011)

51

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

02/08/2011

41

ORDER FOR CONTINUANCE granting 37 Motion to Continue as to
Raymond L. Rogers (1) and David L. Hollis III (2). Motions due by
3/11/11. Jury Trial set for 4/19/2011 at 09:00 AM in Courtroom 238
(JTM) before District Judge J. Thomas Marten. Status Conference set for
4/6/2011 at 02:30 PM in Courtroom 238 (JTM) before District Judge J.
Thomas Marten. Signed by District Judge J. Thomas Marten on
2/8/2011. (aim) (Entered: 02/08/2011)

03/11/2011

42

MOTION to Continue Time to File Defendant's Motions by David L.
Hollis, III. (O'Hara, Charles) (Entered: 03/11/2011)

03/16/2011

43

ORDER granting 42 Motion to Continue as to Raymond L. Rogers (1)
and David L. Hollis, III (2): Motions due by 3/25/2011. Signed by
District Judge J. Thomas Marten on 3/16/2011. (aim) (Entered:
03/16/2011)

03/24/2011

44

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Status conference RE-SET for Monday, April 11,
2011, at 2:00 p.m. This is a rescheduling of the April 6, 2011 hearing.
The defendants will not be present for the status conference. (This is a
TEXT ENTRY ONLY. There is no.pdf document associated with this
entry.) (mss) (Entered: 03/24/2011)

04/06/2011

45

MOTION to Continue Status Conference and Jury Trial by David L.
Hollis, III. (O'Hara, Charles) (Entered: 04/06/2011)

04/07/2011

46

ORDER granting 45 Motion to Continue as to Raymond L. Rogers (1)
and David L. Hollis III (2) Status Conference set for 5/11/2011 at 02:30
PM in Courtroom 238 (JTM) before District Judge J. Thomas Marten.
Jury Trial set for 5/24/2011 at 09:00 AM in Courtroom 238 (JTM)
before District Judge J. Thomas Marten. Signed by District Judge J.
Thomas Marten on 4/7/2011. (adw) (Entered: 04/07/2011)

05/11/2011

47

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 5/11/2011. (This is a TEXT ENTRY ONLY. There
is no.pdf document associated with this entry.) (mss) (Entered:
05/11/2011)

05/18/2011

49

ORDER granting 48 Motion to Continue. Time excluded from
5/16/2011 as to Raymond L. Rogers (1) and David L. Hollis, III. A
Status Conference/Change of Plea and a Jury Trial date of this case will
be scheduled by this Court at a later date. Signed by District Judge J.
Thomas Marten on 5/17/2011. (adw) (Entered: 05/18/2011)

05/19/2011

50

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Jury Trial set for 7/19/2011 at 9:00 AM in
Courtroom 238 (JTM) before District Judge J. Thomas Marten. Status

52

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Conference set for 7/7/2011 at 2:30 PM in Courtroom 238 (JTM) before
District Judge J. Thomas Marten, (mss) (Entered: 05/19/2011)
06/21/2011

54

SUPERSEDING INDICTMENT as to Raymond L. Rogers (1) count(s)
Is, 2s, 3s, 4s, 5s, 6s, David L. Hollis, III (2) count(s) Is, 2s, 3s, Shelan
D. Peters (3) count(s) Is, 2s, 3s. (aa) (Entered: 06/22/2011)

07/07/2011

64

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 7/7/2011. (This is a TEXT ENTRY ONLY. There
is no.pdf document associated with this entry.) (mss) (Entered:
07/07/2011)

07/12/2011

65

MOTION to Continue Jury Trial by Raymond L. Rogers as to Raymond
L. Rogers, David L. Hollis, III. (McEnulty, Sean) (Entered: 07/12/2011)

07/14/2011

66

AGREED ORDER CONTINUING JURY TRIAL granting 65 Motion to
Continue. Time excluded from 07/14/2011 until 09/13/2011 as to
Raymond L. Rogers (1) & David L. Hollis III (2). Jury Trial set for
9/13/2011 at 09:00 AM in Courtroom 238 (JTM) before District Judge J.
Thomas Marten. Status Conference is continued to 08/31/2011 at 3:00
PM. Signed by District Judge J. Thomas Marten on 7/13/2011. (aa)
(Entered: 07/14/2011)

08/25/2011

67

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Status conference RE-SET for 8/31/11 at 1:00 PM
in Courtroom 238 before District Judge J. Thomas Marten. THIS IS A
TIME CHANGE ONLY. (This is a TEXT ENTRY ONLY. There is
no.pdf document associated with this entry.) (mss) (Entered:
08/25/2011)

08/29/2011

69 NOTICE OF CANCELLED HEARING: The status conference set on
August 31, 2011, at 1:00 p.m. as to Defendants Raymond L. Rogers and
David L. Hollis, III is cancelled. (This is a TEXT ENTRY ONLY. There
is no.pdf document associated with this entry.) (mss) (Entered:
08/29/2011)

08/30/2011

70

ORDER granting 68 Motion to Continue. Time excluded from
08/30/2011 as to Raymond L. Rogers (1). Signed by District Judge J.
Thomas Marten on 8/30/2011. (aa) (Entered: 08/30/2011)

08/30/2011

71

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Jury Trial RE-SET for 10/25/2011 at 9:00 AM in
Courtroom 238 (JTM) before District Judge J. Thomas Marten. Status
Conference RE-SET for 10/13/2011 at 3:30 PM in Courtroom 238
(JTM) before District Judge J. Thomas Marten, (mss) (Entered:
08/30/2011)

53

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

09/09/2011

73

ARREST WARRANT returned executed on 12/1/2010 as to David L.
Hollis, III (smg) (Entered: 09/13/2011)

09/30/2011

76

NOTICE OF EXPERT TESTIMONY pursuant to Rule 16(a)(1)(G) by
USA as to Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters
(Attachments: # I Attachment A, # 2 Attachment B)(Smith, Aaron)
(Entered: 09/30/2011)

10/13/2011

77

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 10/13/2011. (This is a TEXT ENTRY ONLY.
There is no.pdf document associated with this entry.) (mss) (Entered:
10/13/2011)

10/20/2011

78

MOTION to Continue Jury Trial by David L. Hollis, III. (O'Hara,
Charles) (Entered: 10/20/2011)

10/24/2011

79

ORDER FOR CONTINUANCE granting 78 Motion to Continue. Time
excluded from 10/24/2011 until 11/29/2011 as to David L. Hollis III (2).
Jury Trial set for 11/29/2011 at 09:00 AM in Courtroom 238 (JTM)
before District Judge J. Thomas Marten. Signed by District Judge J.
Thomas Marten on 10/24/2011. (aa) (Entered: 10/24/2011)

10/24/2011

80 NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III. Status Conference set for 11/14/2011, at 03:00 PM
in Courtroom 238 before District Judge J. Thomas Marten, (jlw)
(Entered: 10/24/2011)

11/07/2011

82

NOTICE OF EXPERT TESTIMONY pursuant to Rule 16(a)(1)(G) by
USA as to Raymond L. Rogers, David L. Hollis, III (Attachments: # I
Attachment A)(Smith, Aaron) (Entered: 11/07/2011)

11/08/2011

83

NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III: Jury Trial RE-SET to commence on Monday,
November 28, 2011 at 9:00 AM in Courtroom 238 before District Judge
J. Thomas Marten. (This is a TEXT ENTRY ONLY. There is no.pdf
document associated with this entry.) (mss) (Entered: 11/08/2011)

11/14/2011

84

NOTICE OF EXPERT TESTIMONY pursuant to Rule 16(a)(1)(G) by
USA as to Raymond L. Rogers, David L. Hollis, III (Attachments: # 1
Attachment A, # 2 Attachment B)(Smith, Aaron) (Entered: 11/14/2011)

11/14/2011

85

ENTRY OF APPEARANCE on behalf of USA by Lanny D. Welch
(Welch, Lanny) (Entered: 11/14/2011)

11/14/2011

86

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 11/14/2011. (Court Reporter Michelle Hancock.)

54

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

(This is a TEXT ENTRY ONLY. There is no.pdf document associated
with this entry.) (jlw) (Entered: 11/15/2011)
11/22/2011

88

NOTICE OF HEARING as to Defendant David L. Hollis, III: Change of
Plea Hearing set for 11/29/2011 at 4:00 PM in Courtroom 238 (JTM)
before District Judge J. Thomas Marten, (mss) (Entered: 11/22/2011)

11/28/2011

89

MOTION to Dismiss Indictment (First Superseding Indictment) by USA
as to Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters. (Smith,
Aaron) (Entered: 11/28/2011)

11/29/2011

90

NOTICE OF HEARING as to Defendant David L. Hollis, III: Change of
plea hearing RE-SET for 11/29/11 at 3:00 PM in Courtroom 238 before
District Judge J. Thomas. NOTE: THIS IS A TIME CHANGE ONLY.
(This is a TEXT ENTRY ONLY. There is no.pdf document associated
with this entry.) (mss) (Entered: 11/29/2011)

11/29/2011

91

ORDER granting 89 Motion to Dismiss Indictment as to Raymond L.
Rogers (1), David L. Hollis III (2), Shelan D. Peters (3). Signed by
District Judge J. Thomas Marten on 11/28/2011. (aa) (Entered:
11/29/2011)

11/29/2011

92

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: CHANGE OF PLEA HEARING as to David L. Hollis, III held
on 11/29/2011. Defendant entered a plea of guilty to Count 2 of the First
Superseding Indictment. Sentencing set for 2/15/2012 at 2:30 PM in
Courtroom 238 (JTM) before District Judge J. Thomas Marten. (Court
Reporter Jana McKinney.) (This is a TEXT ENTRY ONLY. There is
no.pdf document associated with this entry.) (mss) (Entered:
11/29/2011)

11/29/2011

94

PETITION TO ENTER PLEA OF GUILTY AND ORDER ENTERING
PLEA as to David L. Hollis III (2) Count 2. Signed by District Judge J.
Thomas Marten on 11/29/2011. (aa) (Entered: 11/30/2011)

11/29/2011

95

PLEA AGREEMENT as to David L. Hollis, III re 94 Petition and Order
to Enter Plea of Guilty, (aa) (Entered: 11/30/2011)

11/30/2011

97

NOTICE OF HEARING as to Defendant David L. Hollis, III:
Sentencing set for 2/15/2012 at 2:30 PM in Courtroom 238 (JTM) before
District Judge J. Thomas Marten, (mss) (Entered: 11/30/2011)

02/02/2012

111

PRESENTENCE INVESTIGATION REPORT as to David L. Hollis, III
(NOTE: Access to this document is restricted to the USA and this
defendant)
(USPO) (Entered: 02/02/2012)

55

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

02/15/2012

112

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: SENTENCING HEARING held on 2/15/2012 as to defendant
David L. Hollis, III. (Court Reporter Jana McKinney.) (This is a TEXT
ENTRY ONLY. There is no.pdf document associated with this entry.)
(mss) (Entered: 02/15/2012)

02/22/2012

113

ORDER NUNC PRO TUNC as to David L. Hollis, III. The Court
hereby corrects its earlier Order (Dkt. No. 91), so that the First
Superseding Indictment was dismissed as to Mr. Rogers only, and not
Mr. Hollis. Signed by District Judge J. Thomas Marten on 2/17/2012.
(aim) (Entered: 02/22/2012)

02/22/2012

114

JUDGMENT as to David L. Hollis, III (2): Counts 1, Is, 2, 3 and 3s are
dismissed; Count 2s = 7 years imprisonment, said term to run
concurrently to the sentence imposed in Sedgwick County District Court
Case No. 10CR623; 3 years supervised release; $100.00 Assessment.
Signed by District Judge J. Thomas Marten on 2/16/2012. (aim)
(Entered: 02/22/2012)

02/22/2012

115

STATEMENT OF REASONS as to David L. Hollis, III re 114
Judgment.
(NOTE: Access to this document is restricted to the USA and this
defendant.)
(aim) (Entered: 02/22/2012)

03/26/2012

116

JUDGMENT RETURNED EXECUTED as to David L. Hollis, III on
3/15/2012. (smg) (Entered: 03/27/2012)
MINUTE ORDER REASSIGNING CASE as to David L. Hollis, III:
Case reassigned to District Judge Eric F. Melgren for all further
proceedings. District Judge J. Thomas Marten no longer assigned to
case. Signed by deputy clerk on 1/18/2018. (This is a TEXT ENTRY
ONLY. There is no.pdf document associated with this entry.) (mam)
(Entered: 01/18/2018)

01/18/2018

04/18/2018

197

MINUTE ORDER REASSIGNING CASE: Case reassigned to District
Judge John W. Broomes for all further proceedings. District Judge Eric
F. Melgren no longer assigned to case. Signed by deputy clerk on
4/18/18. (This is a TEXT ENTRY ONLY. There is no.pdf document
associated with this entry.) (cs) (Entered: 04/18/2018)

10/10/2018

198

SERVICE BY PUBLICATION filed by USA as to Raymond L. Rogers,
David L. Hollis, III, Shelan D. Peters. Last publication date August 29,
2018. (Attachments: # i Attachment l)(Gumey, Annette) (Entered:
10/10/2018)

56

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

10/10/2018

199

RETURN OF SERVICE of Notice of Forfeiture Served on the FBI as to
Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters (Gurney,
Annette) (Entered: 10/10/2018)

U.S. District Court

DISTRICT OF KANSAS (Wichita)
CRIMINAL DOCKET FOR CASE #: 6:10-cr-10186-JTM-3

Case title: USA v. Rogers et al
Magistrate judge case number: 6:10-mj-06187-KGG

Date Filed: 12/07/2010
Date Terminated: 07/06/2011

Assigned to: District Judge J.
Thomas Marten
Defendant (3)
Shelan D. Peters
TERMINATED: 07/06/2011

represented by Timothy J. Henry
Office of Federal Public Defender Wichita
850 Epic Center
301 North Main Street
Wichita, KS 67202
316-269-6265
Fax:316-269-6175
Email: tim_henry@fd.org
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Designation: Public Defender or
Community Defender Appointment

Pending Counts

Disposition

18:2113(a) - Bank robbery by force
or violence and 18:2 - Aiding and
abetting (INDICTMENT
12/07/2010)
(1)

97 Months Imprisonment (to run
concurrent to the revocation sentence
imposed in USDC case no. 02-cr10147-01); 3 Years Supervised
Release; Si00 Assessment

Highest Offense Level (Opening)
Felony

57

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Terminated Counts

Disposition

18:2113(a) - Bank robbery and 18:2
- Aiding and abetting
(SUPERSEDING INDICTMENT
06/21/2011)
(Is)

Dismissed

18:924(c)(l)(A) - Possessing and
brandishing a firearm in furtherance
of a crime of violence and 18:2 Aiding and abetting (INDICTMENT
12/07/2010)

Dismissed

(2)

18:924(c)(l)(A) - Possession of
firearm in furtherance of a crime of
violence and 18:2 - Aiding and
abetting (SUPERSEDING
INDICTMENT 06/21/2011)
(2s)

Dismissed

18:922(g)(l) and 924(a)(2) - Felon in
possession of a firearm and 18:2 Aiding and abetting (INDICTMENT
12/07/2010)

Dismissed

(3)

18:922(g)(l) and 924(a)(2) - Felon in
possession of a firearm and 18:2 Aiding and abetting
(SUPERSEDING INDICTMENT
06/21/2011)
(3s)

Dismissed

Highest Offense Level
(Terminated)
Felony
Disposition

Complaints
18:2113(a) - Bank robbery;
18:924(c)(l)(A) - Possession and
brandishing a firearm in furtherance
of a crime of violence, and 18:2 Aiding and abetting.

58

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Plaintiff
USA

represented by Aaron L. Smith
Office of United States Attorney —
Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812
316-269-6561
Fax: 316-269-6484
Email: aaron.smith3@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Annette B. Gurney
Office of United States Attorney Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812
316-269-6481
Fax: 316-269-6484
Email: annette.gumey@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
James A. Brown
Office of United States Attorney Topeka
290 US Courthouse
444 SE Quincy
Topeka, KS 66683-3592
785-295-2850
Fax: 785-295-2853
Email: james.brown2@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Lanny D. Welch
Office of United States Attorney Wichita
301 North Main Street, Suite #1200
Wichita, KS 67202-4812
316-269-6481
Fax: 316-269-6484
Email: lanny.welch@usdoj.gov

59

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Date Filed

#

Docket Text

12/03/2010

1

12/07/2010

12

INDICTMENT as to Raymond L. Rogers (1) count(s) 1, 2, 3, David L.
Hollis, III (2) count(s) 1, 2, 3, Shelan D. Peters (3) count(s) 1, 2, 3. (aa)
(Entered: 12/08/2010)

12/07/2010

13

NOTICE by USA as to Raymond L. Rogers, David L. Hollis, III, Shelan
D. Peters, (aa) (Entered: 12/08/2010)

12/08/2010

COMPLAINT as to Raymond L. Rogers (1), David L. Hollis, III (2),
Shelan D. Peters (3). (adw) [6:10-mj-06187-KGG] (Entered:
12/03/2010)

ARREST of Shelan D. Peters, (aim) (Entered: 12/09/2010)

12/08/2010

14

MINUTE ENTRY for proceedings held before Magistrate Judge
Kenneth G. Gale: RULE 5/INITIAL APPEARANCE as to Shelan D.
Peters held on 12/8/2010. ARRAIGNMENT as to Shelan D. Peters (3)
Count 1,2,3 held on 12/8/2010. Defendant signed a Waiver of Detention
Hearing. Court granted Defendant's oral request and ordered Marshal's
service to communicate with counsel regarding Defendant's condition.
Defendants next appearance per the Scheduling Order before Judge
Marten. (Court Reporter Jana Hoelscher.) (aim) (Entered: 12/09/2010)

12/08/2010

15

WAIVER OF DETENTION HEARING by Shelan D. Peters, (aim)
(Entered: 12/09/2010)

12/08/2010

16

CJA 23 FINANCIAL AFFIDAVIT by Shelan D. Peters, (aim) (Entered:
12/09/2010)

12/09/2010

17

Arrest WARRANT returned executed on 12/7/2010 as to Shelan D.
Peters, (adw) (Entered: 12/10/2010)

12/09/2010

18

Arrest WARRANT returned executed on 12/7/2010 as to Shelan D.
Peters, (adw) (Entered: 12/10/2010)

12/14/2010

23

ENTRY OF APPEARANCE: by attorney Timothy J. Henry appearing
for Shelan D. Peters (Henry, Timothy) (Entered: 12/14/2010)

12/14/2010

24

GENERAL ORDER OF DISCOVERY & SCHEDULING as to
Raymond L. Rogers, David L. Hollis, III, and Shelan D. Peters: Jury
60

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

Trial set for 2/15/2011 at 9:00 AM in Courtroom 238 before District
Judge J. Thomas Marten. Status Conference set for 2/3/2011 at 2:30 PM
in Courtroom 238 before District Judge J. Thomas Marten. Signed by
District Judge J. Thomas Marten on 12/14/10. (mss) (Entered:
12/14/2010)
12/15/2010

25

SEALED MOTION for Leave to File Under Seal by Shelan D. Peters.
(Attachments: # 1 Proposed Sealed Document)(Henry, Timothy)
(Entered: 12/15/2010)

12/15/2010

26

ORDER granting 25 Sealed Motion for Leave to File Under Seal.
Counsel is directed to file forthwith the requested document(s) with an
event from the SEALED DOCUMENTS category as to Shelan D. Peters
(3). Entered by District Judge J. Thomas Marten on 12/15/10. (This is a
TEXT ENTRY ONLY. There is no.pdf document associated with this
entry.) (mss) (Entered: 12/15/2010)

12/15/2010

27

SEALED MOTION by Shelan D. Peters. (Henry, Timothy) (Entered:
12/15/2010)

12/16/2010

28

SEALED ORDER granting 27 Sealed Motion as to Shelan D. Peters (3).
Signed by District Judge J. Thomas Marten on 12/16/10. (aim) (Entered:
12/16/2010)

01/21/2011

32

MOTION for order Granting Authority to Consume Physical Evidence
in Furtherance of the Investigation by USA as to Raymond L. Rogers,
David L. Hollis, III, Shelan D. Peters. (Smith, Aaron) (Entered:
01/21/2011)

01/24/2011

33

NOTICE OF HEARING re: 32 MOTION for order Granting Authority
to Consume Physical Evidence in Furtherance of the Investigation:
Responses shall be filed no later than February 4, 2011. A hearing is set
for 2/7/11 at 1:30 p.m. in Courtroom 238 before District Judge J.
Thomas Marten. (This is a TEXT ENTRY ONLY. There is no.pdf
document associated with this entry.) (mss) (Entered: 01/24/2011)

01/27/2011

34

MOTION to Sever Defendant, MOTION to Continue Pre-trial Motion
Deadline, Status Conference and Jury Trial by Shelan D. Peters. (Henry,
Timothy) (Entered: 01/27/2011)

01/27/2011

35

DEMAND FOR NOTICE OF ALIBI DEFENSE by USA as to
Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters (Smith,
Aaron) (Entered: 01/27/2011)

01/31/2011

36

ORDER TO SEVER AND CONTINUE granting 34 Motion to Sever
Defendant as to Shelan D. Peters (3); granting 34 Motion to Continue as
to Shelan D. Peters (3). The deadline for filing pre-trial motions, the
status conference and the jury trial are continued to a later date to be

61

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

determined by the Court. Signed by District Judge J. Thomas Marten on
1/31/2011. (aim) (Entered: 01/31/2011)
02/07/2011

39

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: MOTION HEARING as to Raymond L. Rogers, David L.
Hollis, III, and Shelan D. Peters held on 2/7/2011. Counsel for defendant
Peters was present. Defendant Peters was not present. Order to follow.
(Court Reporter Jana Hoelscher.) (This is a TEXT ENTRY ONLY.
There is no.pdf document associated with this entry.) (mss) (Entered:
02/07/2011)

06/15/2011

52

NOTICE OF HEARING as to Defendant Shelan D. Peters: Change of
Plea Hearing set for 7/5/2011 at 10:00 AM in Courtroom 238 (JTM)
before District Judge J. Thomas Marten, (mss) (Entered: 06/15/2011)

06/17/2011

53

NOTICE OF HEARING as to Defendant Shelan D. Peters: Change of
Plea Hearing and Sentencing RE-SET for 7/5/2011 at 11:00 AM in
Courtroom 238 (JTM) before District Judge J. Thomas Marten. PLEASE
NOTE TIME CHANGE, (mss) (Entered: 06/17/2011)

06/21/2011

54

SUPERSEDING INDICTMENT as to Raymond L. Rogers (1) count(s)
Is, 2s, 3s, 4s, 5s, 6s, David L. Hollis, III (2) count(s) Is, 2s, 3s, Shelan
D. Peters (3) count(s) Is, 2s, 3s. (aa) (Entered: 06/22/2011)

06/30/2011

55

PRESENTENCE INVESTIGATION REPORT as to Shelan D. Peters
(NOTE: Access to this document is restricted to the USA and this
defendant.)
(USPO) (Entered: 06/30/2011)

07/01/2011

56

ARREST WARRANT returned executed on 6/22/2011 as to Shelan D.
Peters, (smg) (Entered: 07/01/2011)

07/05/2011

57

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: CHANGE OF PLEA HEARING as to Shelan D. Peters held on
7/5/2011. Defendant entered a plea of guilty to Count 1 of the
Indictment. Sentencing set for 7/5/2011 at 11:45 AM in Courtroom 238
(JTM) before District Judge J. Thomas Marten. (Court Reporter Jana
McKinney.) (This is a TEXT ENTRY ONLY. There is no.pdf document
associated with this entry.) (mss) (Entered: 07/05/2011)

07/05/2011

58

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: SENTENCING HEARING held on 7/5/2011 as to defendant
Shelan D. Peters. (Court Reporter Jana McKinney.) (This is a TEXT
ENTRY ONLY. There is no.pdf document associated with this entry.)
(mss) (Entered: 07/05/2011)

62

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

07/05/2011

59

PETITION TO ENTER PLEA OF GUILTY AND ORDER ENTERING
PLEA as to Shelan D. Peters (3): Count 1. Signed by District Judge J.
Thomas Marten on 7/5/2011. (aa) (Entered: 07/05/2011)

07/05/2011

60

PLEA AGREEMENT as to Shelan D. Peters re 59 Petition and Order to
Enter Plea of Guilty, (aa) (Entered: 07/05/2011)

07/06/2011

61

JUDGMENT as to Shelan D. Peters (3): Count 1 = 97 Months
Imprisonment (to run concurrent to the revocation sentence imposed in
USDC case no. 02-cr-10147-01); 3 Years Supervised Release; $100
Assessment; Count(s) Is, 2, 2s, 3, 3s, Dismissed. Signed by District
Judge J. Thomas Marten on 7/6/2011. (aa) (Entered: 07/06/2011)

07/06/2011

62

STATEMENT OF REASONS as to Shelan D. Peters re 61 Judgment.
(NOTE: Access to this document is restricted to the USA and this
defendant.)
(aa) (Entered: 07/06/2011)

09/19/2011

74

MOTION for Forfeiture of Property andfor Preliminary Order of
Forfeiture by USA as to Shelan D. Peters. (Gumey, Annette) (Entered:
09/19/2011)

09/19/2011

75

PRELIMINARY ORDER OF FORFEITURE granting 74 plaintiffs
Motion for Forfeiture of Property as to Shelan D. Peters (3). Signed by
District Judge J. Thomas Marten on 9/19/2011. (mss) (Entered:
09/19/2011)

09/30/2011

76

NOTICE OF EXPERT TESTIMONY pursuant to Rule 16(a)(1)(G) by
USA as to Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters
(Attachments: # l Attachment A, # 2 Attachment B)(Smith, Aaron)
(Entered: 09/30/2011)

10/24/2011

80 NOTICE OF HEARING as to Defendants Raymond L. Rogers and
David L. Hollis, III. Status Conference set for 11/14/2011, at 03:00 PM
in Courtroom 238 before District Judge J. Thomas Marten, (jlw)
(Entered: 10/24/2011)

11/14/2011

86

MINUTE ENTRY for proceedings held before District Judge J. Thomas
Marten: STATUS CONFERENCE as to Raymond L. Rogers and David
L. Hollis, III held on 11/14/2011. (Court Reporter Michelle Hancock.)
(This is a TEXT ENTRY ONLY. There is no.pdf document associated
with this entry.) (jlw) (Entered: 11/15/2011)

11/28/2011

89

MOTION to Dismiss Indictment (First Superseding Indictment) by USA
as to Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters. (Smith,
Aaron) (Entered: 11/28/2011)

63

Case 6:10-cr-10186-JTM As of: 10/27/2014 2:37 PM CDT Document 54 Filed 06/21/11 Page 1 of 40

11/29/2011

91

ORDER granting 89 Motion to Dismiss Indictment as to Raymond L.
Rogers (1), David L. Hollis III (2), Shelan D. Peters (3). Signed by
District Judge J. Thomas Marten on 11/28/2011. (aa) (Entered:
11/29/2011)

10/10/2018

198

SERVICE BY PUBLICATION filed by USA as to Raymond L. Rogers,
David L. Hollis, III, Shelan D. Peters. Last publication date August 29,
2018. (Attachments: # I Attachment l)(Gumey, Annette) (Entered:
10/10/2018)

10/10/2018

199

RETURN OF SERVICE of Notice of Forfeiture Served on the FBI as to
Raymond L. Rogers, David L. Hollis, III, Shelan D. Peters (Gurney,
Annette) (Entered: 10/10/2018)

06/17/2019

211

MOTION for Final Order o/Forfeiture of Property by USA as to Shelan
D. Peters. (Gurney, Annette) (Entered: 06/17/2019)

06/20/2019

212

FINAL ORDER OF FORFEITURE granting 2H Motion for A Final
Order of Forfeiture as to Shelan D. Peters (3). Signed by District Judge
John W. Broomes on 6/20/2019. (mam) (Entered: 06/20/2019)

64

Appendix (D)

FIRST SUPERSEDING INDICTMENT

APPENDIX (D)

Case 6:10-cr-10186-JWB Document 54 Filed 06/21/11 Page 1-5

IN THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF KANSAS

UNITED STATES OF AMERICA,

)
)

) Criminal Action

Plaintiff,

)

) No. 10-10186 -01, 02, 03- JTM

v.
RAYMOND L. ROGERS,
DAVID L. HOLLIS III, and
SHELAN D. PETERS
Defendants.

)
)
)
)
)
)

FIRST SUPERSEDING INDICTMENT
The Grand Jury charges:
COUNT ONE
On or about December 1, 2010, in the District of Kansas, the defendants,
RAYMOND L. ROGERS,
DAVID L. HOLLIS III, and
SHELAN D. PETERS,
by force, violence, and intimidation did take from the person or presence of another,
money, namely 102,743.00 United States Currency, belonging to, and in the care,
custody, control, management, and possession of, the Equity Bank in Wichita,
Kansas, a bank whose deposits were then insured by the Federal Deposit Insurance
Corporation.
In violation of Title 18, United States Code, Section 2113(a) and Section 2.

65

Case 6:10-cr-10186-JWB Document 54 Filed 06/21/11 Page 1-5

COUNT TWO
On or about December 1, 2010, in the District of Kansas, the defendants,
RAYMOND L. ROGERS,
DAVID L. HOLLIS III, and
SHELAN D. PETERS,
did knowingly possess firearms and brandish firearms, to wit: a Intratec Luger 9mm
handgun, and a Bersa Thunder .380 handgun, in furtherance of a crime of violence
for which they may be prosecuted in a court of the United States, to wit: Bank
Robbery in violation of Title 21, United States Code, Section 2113(a).
In violation of Title 18, United States Code, Section 924(c)(1)(A) and Section 2.
COUNT THREE
On or about December 1, 2010, in the District of Kansas, the defendants,
RAYMOND L. ROGERS,
DAVID L. HOLLIS III, and
SHELAN D. PETERS,
having been convicted of a crime punishable by imprisonment for a term exceeding
one year, did knowingly possess in and affecting commerce, firearms, to wit: a
Intratec Luger 9mm handgun, and a Bersa Thunder .380 handgun, said firearm
having been shipped and transported in interstate commerce.
In violation of Title 18, United States Code, Sections 922(g)(1) and 924(a)(2)
and Section 2.

66

Case 6:10-cr-10186-JWB Document 54 Filed 06/21/11 Page 1-5

COUNT FOUR
On or about November 15, 2010, in the District of Kansas, the defendant,
RAYMOND L. ROGERS,
by force, violence, and intimidation did take from the person or presence of another,
money, namely $117,141.00 United States Currency, belonging to, and in the care,
custody, control, management, and possession of, the Sunflower Bank in Wichita,
Kansas, a bank whose deposits were then insured by the Federal Deposit Insurance
Corporation.
In violation of Title 18, United States Code, Section 2113(a) and Section 2.
COUNT FIVE
On or about November 15, 2010, in the District of Kansas, the defendant,
RAYMOND L. ROGERS,
did knowingly possess firearms and otherwise use firearms, to wit: Intratec Tec 22
.22 caliber handgun, and a Modesa F.T. .22 caliber revolver, in furtherance of a crime
of violence for which they may be prosecuted in a court of the United States, to wit:
Bank Robbery in violation of Title 21, United States Code, Section 2113(a).
In violation of Title 18, United States Code, Section 924(c)(1)(A) and Section 2.
COUNT SIX
On or about November 15, 2010, in the District of Kansas, the defendant,

67

Case 6:10-cr-10186-JWB Document 54 Filed 06/21/11 Page 1-5

RAYMOND L. ROGERS,
having been convicted of a crime punishable by imprisonment for a term exceeding
one year, did knowingly possess in and affecting commerce, firearms, to wit: a
Intratec Tec 22 .22 caliber handgun, and a Modesa F.T. .22 cabber revolver, said
firearm having been shipped and transported in interstate commerce.
In violation of Title 18, United States Code, Sections 922(g)(1) and 924(a)(2)
and Section 2.
FORFEITURE NOTICE
Upon conviction of the offense in Count One, the defendants, RAYMOND L.
ROGERS, DAVID L. HOLLIS III, and SHELAN D. PETERS, shall forfeit to the
United States, pursuant to Title 18, United States Code, Section 924(d) and Title 28,
United States Code, Section 2461(c), any firearms and ammunition involved in the
commission of the offense, including, but not limited to:
a) a Intratec Luger 9mm handgun,
b) a Bersa Thunder .380 handgun.
All pursuant to Title 18, United States Code, Section 924(d) and Title 28
United States Code, Section 2461(c).
Upon conviction of the offense in Count Four, the defendants, RAYMOND L.
ROGERS, and SHELAN D. PETERS, shall forfeit to the United States, pursuant to

68

Case 6:10-cr-10186-JWB Document 54 Filed 06/21/11 Page 1-5

Title 18, United States Code, Section 924(d) and Title 28, United States Code, Section
2461(c), any firearms and ammunition involved in the commission of the offense,
including, but not limited to:
a) a Intratec Tec 22, .22 caliber handgun,
b) a Modesa F.T., .22 caliber revolver.
All pursuant to Title 18, United States Code, Section 924(d) and Title 28,
United States Code, Section 2461(c).
A TRUE BILL
June 21. 2011
DATE
s/Foreperson

FOREMAN OF THE GRAND JURY
s/ Barry R. Grissom
BARRY R. GRISSOM
United States Attorney
District of Kansas
1200 Epic Center, 301 N. Main
Wichita, Kansas 67202
(316) 269-6481
(316) 269-6484 (fax)
barrv.fiyissom@usdoi.gov
KS. S. Ct. No. 10866
(It is requested that trial be held in Wichita, Kansas.)

69

Appendix (E)

JURY INSTRUCTION NO. 18
“Constructive Amendment Violation Error”

APPENDIX (E)

INSTRUCTION NO. 18

Raymond L. Rogers is charged in Count I with a violation of 18 U.S.C. section
2113(a).
This law makes it a crime to take from a person by force, violence, and
intimidation any money in the possession of a federally insured bank, and in the
process of so doing, to put in jeopardy the life of any person by the use of a
dangerous weapon or device.
To find the defendant guilty of this crime you must be convinced that the
government has proved each of the following beyond a reasonable doubt.
First: the defendant intentionally took money from the person;
Second: the money belonged to or was in the possession of a federally insured
bank at the time of the taking;
Third: the defendant took the money by means of force and violence or
intimidation; and
Fourth: the defendant put some person’s life in jeopardy by the use of a
dangerous weapon or device, while engaged in the taking of the money.
A “federally insured bank” means any bank with deposits insured by the
Federal Deposit Insurance Corporation.
To take “by means of intimidation” is to say or do something in such a way
that a person of ordinary sensibilities would be fearful of bodily harm. It is not
necessary to prove that the alleged victim was actually frightened, and neither is it

70

necessary to show that the behavior of the defendant was so violent that it was
likely to cause terror, panic, or hysteria. However, a taking would not be
by “means of intimidation” if the fear, if any, resulted from the alleged victim’s own
timidity rather than some intimidating conduct on the part of the defendant. The
essence of the offense is the taking of money or property accompanied by
intentional, intimidating behavior on the part of the defendant.
A “dangerous weapon or device” includes anything capable of being readily
operated or wielded by one person to inflict severe bodily harm or injury upon
another person.
To “put in jeopardy the life of any person by the use of a dangerous weapon or
device” means to expose someone else to a risk of death by the use of a dangerous
weapon or device.

71

Appendix (F)

UNITED STATES GOVERNMENT’S ADMISSION
THAT THE KANSAS DISTRICT COURT ALLOWED
PETITIONER TO BE CONVICTED OF AN
OFFENSE NO GRAND JURY CHARGED HIM WITH VIOLATING

APPENDIX (F)

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS

UNITED STATES OF AMERICA,)
Respondent/Plaintiff,)
Vs.
RAYMOND L. ROGERS,
Movant/Defendant.

)
)
)
)

No.

10-10186-01-JTM
13-CV-1448-JTM

)

GOVERNMENT’S RESONSE TO DEFENDANT’S
MOTION UNDER 8 2255 TO VACATE. SET ASIDE. OR CORRECT
COMES NOW the plaintiff, the United States of America, by and through
Barry R. Grissom, United States Attorney for the District of Kansas, and James A.
Brown, Assistant United States Attorney for said District, and hereby responds to
the defendant’s Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence by a Person in Federal Custody (Doc. 146) and his Motion to Supplement
his § 2255 Motion (Doc. 148).
I. Statement of the Case
On June 21, 2011, the Wichita, Kansas grand jury charged the defendant in
an Indictment with bank robbery, in violation of 18 U.S.C. § 2113(a) (Count 1);
possessing and brandishing a firearm in furtherance of the bank robbery alleged in

72

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

Count 1, in violation of 18 U.S.C. § 924(c)(1)(A) (Count 2); and being a felon in
possession of a firearm, in violation of 18 U.S.C. § 922(g)(1) (Count 3). (Doc. 12,
Indictment.) On December 1, 2011, a jury convicted the defendant on all counts.
(Doc. 103, Verdict.) On April 16, 2012, this Court sentenced him 150 months on
Count 1; 84 months on Count 2, to run consecutively with Counts 1 and 3; and 120
months on Count 3, to run concurrently with Counts 1 and 2. (Doc. 120, J. at 1-2.)
He timely filed his Notice of Appeal on May 1, 2012. (Doc. 122, Not. of Appeal.)
The defendant directly appealed his conviction on Count 1 and his sentence
to the United States Court of Appeals for the Tenth Circuit. See United States v.
Rogers, 520 Fed. Appx. 727 (10th Cir. 2013). That court affirmed his conviction and
sentence on April 5, 2013. Id. He did not file a petition for writ of certiorari with
the United States Supreme Court.
On December 2, 2013, he filed a Motion to Vacate, Set Aside or Correct a
Sentence or Conviction by a Person in Federal Custody; on December 16, 2013, he
filed a Motion to Supplement his December 2, 2013 motion; on March 18, 2014, he
filed another Motion to Supplement his § 2255 motion. (See Doc. 145, Def.’s
§ 2255 Mot.; Doc. 148, Def.’s Supp; Doc. 155, Def.’s 2nd Supp.) He filed all of these
motions within the applicable statute of limitations. See 28 U.S.C. § 2255(f)(1) (“A
1-year period of limitation shall apply to a motion under this section. The limitation
period shall run from . . . the date on which the judgment of conviction becomes
final.”).
II. Legal Standards for Ineffective Assistance of Counsel

73

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

A successful claim of ineffective assistance of counsel must meet the two­
pronged test set forth in Strickland v. Washington, 466 U.S. 668 (1984). First, a
defendant must show that his counsel’s performance was deficient in that it “fell
below an objective standard of reasonableness.” Id. at 688. To meet this first
prong, a defendant must demonstrate that the omissions of his counsel fell “outside
the wide range of professionally competent assistance.” Id. at 690. This standard is
“highly demanding.” Kimmelman v. Morrison, All U.S. 365, 382 (1986). Strategic
or tactical decisions on the part of counsel are presumed correct, Strickland, 466
U.S. at 689, unless they were “completely unreasonable, not merely wrong, so that
[they] bear no relationship to a possible defense strategy,” Fox v. Ward, 200 F.3d
1286, 1296 (10th Cir. 2000) (quotation and citations omitted) (alteration in Fox).
In all events, judicial scrutiny of the adequacy of attorney performance must
be strongly deferential: “[A] court must indulge a strong presumption that counsel’s
conduct falls within the wide range of reasonable professional assistance.”
Strickland, 466 U.S. at 689. Moreover, the reasonableness of the challenged
conduct must be evaluated from counsel’s perspective at the time of the alleged
error; “every effort should be made to ‘eliminate the distorting effects of hindsight.’”
Edens v. Hannigan, 87 F.3d 1109, 1114 (10th Cir. 1996) (quoting Strickland, 466
U.S. at 689)).
Second, a defendant must also show that his counsel’s deficient performance
actually prejudiced his defense. Strickland, 466 U.S. at 687. To prevail on this
prong, a defendant “must show there is a reasonable probability that, but for his

74

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

counsel’s unprofessional errors, the result of the proceeding would have been
different.” Id. at 694. A “reasonable probability” is a “probability sufficient to
undermine confidence in the outcome.” Id. This, in turn, requires the court to focus
on “the question whether counsel’s deficient performance render[ed] the result of
the trial unreliable or the proceeding fundamentally unfair.” Lockhart v. Fretwell,
506 U.S. 364, 372 (1993).
The defendant must satisfy both prongs, and his failure to satisfy either
prong should result in denial of his motion. See United States v. Orange, 447 F.3d
792, 796-97 (10th Cir. 2006) (“Because [a defendant] must demonstrate both
Strickland prongs to establish his claim, a failure to prove either one is
dispositive.”) (citations omitted); Smith v. Robbins, 528 U.S. 259, 286 (2000)
(“The performance component need not be addressed first. ‘If it is easier to dispose
of an ineffectiveness claim on the ground of lack of sufficient prejudice, which we
expect will often be so, that course should be followed.’”) (quoting Strickland, 466
U.S. at 697)); see also Romano u. Gibson, 239 F.3d 1156, 1181 (10th Cir. 2001)
(“This court can affirm the denial of habeas relief on whichever Strickland prong is
the easier to resolve.”).
In a habeas proceeding, the defendant has the burden to demonstrate that
his counsel performed deficiently, see Beeler v. Crouse, 332 F.2d 783, 783 (10th Cir.
1964) (“Habeas corpus is a civil proceeding and the burden is on the petitioner to
show by a preponderance of the evidence that he is entitled to relief.”), and this
means that he has the burden to allege facts that would entitle him to relief upon

75

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

proof, see Hatch v. Oklahoma, 58 F.3d 1447, 1471 (10th Cir. 1995) (“To be entitled to
an evidentiary,hearing on claims raised in a habeas petition, the petitioner must
allege facts which, if proved, would entitle him to relief.”) (internal quotations
omitted), overruled in part on other grounds by Daniels v. United States, 254 F.3d
1180, 1188 n.l (10th Cir. 2001) (en banc). Further, “the allegations must be specific
and particularized, not general or conclusory.” Id. See also United States v.
Quarterman, 242 F.3d 392, *2 n.3 (10th Cir. 2000) (table) (noting, in considering
petitioner's unsupported § 2255 claim, “Despite [Petitioner’s] pro se status, this
court will not sift through her brief in an attempt to construct legal arguments or
theories for her, see Whitney v. New Mexico, 113 F.3d 1170, 1173-74 (10th Cir. 1997)
nor consider unsupported, conclusory allegations on appeal, see Wise v. Bravo, 666
F.2d 1328, 1333 (10th Cir. 1981).”).
Under § 2255, the district court is required to conduct an evidentiary hearing
“[u]nless the motion and the files and records of the case conclusively show that the
prisoner is entitled to no relief.” 28 U.S.C. § 2255(b); United States v. Lopez, 100
F.3d 113, 119 (10th Cir. 1996).
III. Jury Trial Facts
A. Bank Robbery and Pursuit of Robbers
In the early morning hours of December 1, 2010, two citizens of Wichita,
Kansas, reported that their vehicles had been stolen. A few minutes after 7:00 a.m.
Patricia Arnett noticed that her blue Ford Escape had been stolen from her

76

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

driveway in Wichita, Kansas. (Trial Tr. at 126-29.)1 She reported the theft to the
Wichita Police Department and an officer took her report between 7:20 a.m. and
7:30 a.m. (Id. at 128.) At around 7:30 a.m., Margaret Henderson noticed that her
1996 Chevy Tahoe had been stolen from her driveway in Wichita, Kansas. (Id. at
118-20.) She reported the theft to the police between 7:35 a.m. and 7:40 a.m. that
morning. (Id. at 120.)
Between 8:30 a.m. and 9:00 a.m. that morning, Sean M. Fitzgerald, a Special
Agent with the Federal Bureau of Investigation, received a telephone call from a
Wichita Police Department officer, who informed him that the police thought a bank
robbery was about to occur based on the fact that these two vehicles had been
reported stolen. (Id. at 150-51.) Agent Fitzgerald left his office to begin
surveillance. (Id. at 150.)
At around 10:38 a.m. that morning, three African-American males wearing
masks and gloves entered the Equity Bank on North Webb Road in Wichita,
Kansas. (Id. at 9, 54-56, 378.) When they entered, the bank’s branch manager,
Kristen Myer, was in the vault room getting some supplies. (Id. at 8-9, 11, 34.)
The only other employee working at the time, Susan Stevens, was on the teller line.
(Id. at 10-12.) Two of the masked men jumped over the teller counter and started
The transcript of the jury trial consists of 450 sequentially paginated pages
and is contained in Documents 131, 129, 132, and 133; the sequentially paginated
numbers appear in the lower right-hand corner of each page. For convenience, the
government cites to these four documents collectively as “Trial Tr.” followed by the
corresponding sequentially paginated page number in the lower right-hand corner
of each page.
i

77

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

screaming, “Get down on the ground!” and “Where’s the money?” and “Give me the
money.” (Id. at 34-35.) One of the two men had a gun. (Id. at 31, lines 4-11.)
They took money from Stevens’ teller drawer. (Id. at 36, 40.) The third man, who
had a gun that looked like a machine gun, remained in the lobby. (Id. at 35-37.)
Neither Myer nor Stevens got on the ground because they were so shocked. (Id. at
30.)

The two men behind the teller area instructed Myer and Stevens to open the
vault. (Id. at 28.) When they encountered problems in opening the vault, one of the
men, who was holding a firearm, told Myer, “If you don’t open it, I’ll shoot you.
Don’t make me shoot you.” (Id. at 30-31.) Myer thought he was going to shoot her.
(Id. at 31.) Once Myer and Stevens opened the vault, the two men started taking
money from the vault and putting it in a laundry bag. (Id. at 31-32.) While they did
so, Myer backed into a corner of the vault and crouched down because she was
worried that the men would shoot her on the way out:
I just wanted to get as small as possible, I-I don’t-I didn’t know what
to do so I was thinking, What am I supposed to do now, but I wanted to get as
small as possible because I was kind of worried that they were going to shoot
me on the way out because, you know, even though they’re in-they’re covered
up, you know, you never know if they’re thinking, Oh, she saw me or
something, I don’t know.
I was worried they were going to shoot me on the way out.
(Id. at 32-33 (Myer’s testimony).)
During these events, the third man who had remained in the lobby area
walked up to the teller counter, pointing and waving his firearm at Myer and

78

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page lot67

Stevens. {Id. at 41-42, 46.) After taking the money, the three men left the bank
through the front door and drove away in a sport-utility vehicle. {Id. at 39.)
On this date, the bank had several security measures in place to track wouldbe bank robbers. {Id. at 63.) The bank had “bait money” in each of the teller
drawers, consisting of a group of bills with recorded serial numbers. {Id. at
63-65.) The bank also had “dye-packs” in each of the teller draws and the vault.
{Id. at 63-64.) A dye-pack is “a bundle of what looks like money that’s sitting in the
drawer but actually inside of it is a canister of tear gas and red dye” that becomes
activated when it is removed and also when it passes through an “activation zone”
in the bank. {Id.)
The robbers did not have permission to take the money, which totaled
$102,743.00. {Id. at 33, 63.) On the date of this robbery, the bank was insured by
the Federal Deposit Insurance Corporation. {Id. at 66.)
After the robbery, a citizen of Wichita, Randy Croley, was driving north on
Webb Road when a vehicle filled with red smoke pulled out in front of him. {Id. at
71-73.) He described the vehicle as green Chevy Suburban. {Id. at 77.) Because of
the red smoke, Croley thought the vehicle had been involved in a robbery, so he
called 911. {Id. at 73-75.) Croley observed the vehicle stop in the area and observed
an African-American male exit the vehicle. {Id. at 78.)
Sergeant Bruce Watts, of the Wichita Police Department, received reports
from dispatch that a robbery had occurred and that “a citizen had observed the
vehicle involved in the bank robbery, the green Tahoe, turn eastbound in front of

79

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

Webb.” {Id. at 89-90.) He located the vehicle near the 9700 block of Van Thaden
Street, off of Webb Road. {Id. at 93.) There, he approached the vehicle and found it
unoccupied. {Id. at 93-94.) He looked in the vehicle and saw “a large sum of money
stained in red dye, laying on the floor board.” {Id. at 94-95.) He thought this money
was proceeds from the bank robbery that had been stained with red dye from the
dye-packs. {Id. at 95.) He also saw the smoke from the dye-packs coming from the
vehicle, which was a green Chevy Tahoe. {Id.)
After turning custody of the vehicle over to other officers, Sergeant Watts
heard from radio traffic that officers were chasing the blue Ford Escape that had
been stolen earlier that morning. {Id. at 99-100.) Special Agent Fitzgerald heard
that officers were pursuing this vehicle northbound on Woodlawn; he joined the
chase. {Id. at 152.) He located the blue Ford Escape as it was being pursued by
about 12 to 15 marked units near 21st and Woodlawn in the Woodgate apartment
complex. {Id. at 152-54.)
As the vehicle was traveling down the frontage road adjacent to the
apartment complex, Special Agent Fitzgerald observed two individuals exit the
passenger side of the vehicle and run away from the vehicle while it was still
moving. {Id. at 154-55.) The driver also exited. {Id. at 155.) He described the
three individuals as “three black males,” who “matched the general descriptions of
Shelan Peters, David Hollis, and Raymond Rogers.” {Id. at 155.) Special Agent
Fitzgerald then chased the men, whom he saw running in between the carport and
building 12 of the apartment complex. {Id. at 157.) The three eventually split up,

80

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

with the driver running eastbound and the other two men running south on the
eastern side of building 12. (Id. at 158-60.) Fitzgerald pursued the driver, Shelan
Peters, who was eventually caught by Wichita police officers after they shot him.
(Id. at 159-60.)
Wichita Police Department Officer Bart Norton arrived at the apartment
complex to assist. (Id. at 180.) There, he observed the blue Ford Escape, which
had crashed into some other vehicles in the apartment complex outside of building
11. (Id. at 181.) He approached this vehicle to make sure that nothing was
disturbed, and he saw a dark jacket lying directly under the driver’s side of the
door. (Id. at 183.) He also saw some red-stained U.S. Currency. (Id. at 184.)
At the scene, Norton heard “some commotion at the top floor of building 12,
kind of like a lady screaming.” (Id. at 185.) Norton and other officers went to
building 12 and entered the apartment where the screaming was coming from. (Id.
at 185-88.) In that apartment, they found David Hollis and arrested him. (Id. at
187.) Norton spoke with the lady who had been screaming, and she stated that she
did not know him. (Id. at 188.)
Wichita Police Department Officer Robert Bachman was also assisting at the
apartment complex. (Id. at 194-96.) After officers arrested Hollis in building 12, he
and other officers focused their attention on finding the third suspect in building
12. (Id. at 198-99.) He and other officers went around to the apartments in the
building and “started clearing the apartments, taking people out of the apartments
and making sure the suspects weren’t in the apartments.” (Id. at 199-200.)

81

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

Eventually, the officers came to apartment 1217 in building 12. (Id. at 202.)
The officers made contact with the lessor of that apartment, Raquel Mendia, and
gained entry. (Id. at 202, 343-44.) Inside, they found several people, including
Tom Bell, Bell’s nephew Calvin Baker, Baker’s girlfriend LaRhonda, and Jose
Villa. (Id. at 202-03, 363.) In the process of clearing the apartment, Officer
Bachman “saw a black male stick his head out from the southwest bedroom corner
or southwest bedroom into the hallway and look real quick and then go back into
the hallway-or into the bedroom.” (Id. at 203.) Bachman ordered him to step out
into the hallway. (Id. at 204.) Bachman arrested the man, who was the defendant.
(Id. at 204-05.)
Officer Rex Leffew transported the defendant from the scene to the
Sedgwick County Jail and took custody of the clothing he was wearing. (Id. at
222-26.) He collected a white T-shirt the defendant was wearing. (Id. at 226-27,
229; Govt. Ex. 25.) He noticed that the T-shirt “had some red dye in about the
midsection, lower part of it.” (Id.)
B. Forensic Investigation
Officers later processed apartment 1217, the white T-shirt, the blue Ford
Escape, and the green Chevy Tahoe for evidence. Special Agent Fitzgerald searched
apartment 1217. (Id. at 165.) In the bathroom, he found money wrapped in plastic
bags inside the toilet tank. (Id. at 162, 166.) He saw “the bands from the bank” on
the money. (Id. at 162.) Investigator Andrew Maul collected this bag, which he

82

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67
found contained $62,300 in U.S. Currency. (Id. at 279-84; Govt. Ex. 30.) The U.S.
currency in the bag contained bait money from the Equity Bank. (Id. at 370-71.)
Randall Fornshell, a forensic scientist with the Sedgwick County Regional
Forensic Science Center, tested the red dye on the defendant’s white T-shirt. (Id. at
302-04.) He tested the shirt to check “for bank dye components” and found “the
bank dye itself, which is l-(methylamino) anthraquinone” on the T-shirt. (Id. at
307, 314-15.) He explained that this substance “is a red dye that’s not found
normally on any product” except taillight lenses of a car. (Id. at 308, 315.) He
explained the dye in taillight lenses could not be transferred from the taillight to
another object just by rubbing against the taillight because “it’s [encapsulated in
plastic so it doesn’t rub off.” (Id. at 308, 316.) Fornshell could not state how long
the dye had been on the shirt. (Id. at 319-20.)
Investigator Maul processed the Ford Escape. (Id. at 262-63.) Inside he
found some clothing and red dye on the rear seat. (Id. at 265, 268.) Underneath a
jacket on the passenger’s front seat, he found two firearms. (Id. at 268.) One was a
loaded Intratec AB-10 .9 millimeter semi-automatic handgun. (Id. at 270, Govt.
Ex. 41.) The other was a loaded Bersa semi-automatic handgun. (Id. at 272,
Govt. Ex. 40.) Both firearms were manufactured outside of the State of Kansas and
functioned as designed. (Id. at 292-301.) Investigator Maul processed the vehicle
for fingerprints but did not find any. (Id. at 288.)
Crime Scene Investigator Colleen Jensen processed the Chevy Tahoe. (Id. at

83

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

237-40.) Inside that vehicle, she found a white plastic bag on the floor that
contained money. (Id. at 241.) Both the bag and the money in it were stained with
dye from the dye pack. (Id.) She observed red dye on the seats in the vehicle. (Id.
at 242.) Along with the money, she found envelopes from the bank, bank bands
from the bank, and unique two-dollar bills. (Id. at 250-53.) Kristen Myer
recognized the two-dollars bills as having been stolen during the robbery. (Id. at
50-52.)
C. Defendant’s Entry into Apartment 1217
Two civilian witnesses testified about how the defendant arrived at and
entered into apartment 1217, where officers arrested him.
1. Raquel Mendia’s testimony
On December 1, 2010, Raquel Mendia was living in apartment 1217 with her
boyfriend, Tom Bell, and her daughter, Shamika. (Id. at 325-27.) She leased the
apartment. (Id. at 343-44.) When Mendia got off work at 12:00 a.m. on December 1
and went home, she encountered three other people, including Calvin Baker,
Calvin’s girlfriend Rhonda, and their baby. (Id. at 327-28.) At some point,
Mendia’s sister and one of her sister’s friends came over to play dominoes but they
left after about an hour, which was before Mendia went to bed. (Id. at 328-30.)
Mendia woke up at 9:00 a.m on December 1 when she heard a knock on the
door. (Id. at 330.) It was Tom’s friend, Jose Villa, whom she knew as a friend. (Id.
at 331.) Calvin and Rhonda were still in the apartment. (Id.) Calvin and Jose left
the apartment to get food for breakfast, and Mendia and Tom returned to her

84

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

bedroom and went back to sleep. (Id. at 332-33.) After Calvin and Jose returned
from the store, Mendia remained in her bedroom, Calvin went back to his bedroom,
and Jose was in the front room watching television. (Id. at 333-34.)
At some later point, Mendia heard “a loud pounding'’ at the front door. (Id. at
336.) She left her bedroom to answer it. (Id. at 336-37.) She opened the door and
saw “a guy standing there” who “comes in the door”; she did not recognize him. (Id.
at 337.) He did not announce himself or ask to enter, and he looked “like he had
been running” and “was sweaty.” (Id.) He did not ask to speak with anyone in the
apartment and was holding a jacket in front of him. (Id. at 338.) Mendia
immediately went to get Tom ‘“cuz a guy had just walked in the apartment.” (Id. at
337, 339.) Mendia went back to her bedroom and shut her door, and Tom came out
of the bedroom and spoke with this individual, but eventually went back to the
bedroom with Mendia. (Id. at 339-40, 353.) Calvin and Rhonda were in the spare
bedroom. (Id. at 352.) While in her bedroom, Mendia heard some commotion
outside. (Id. at 341.) She looked outside and saw “[pjolice officers and like the
SWAT team surrounding the complex.” (Id. at 342.)
About 20 to 30 minutes after the unknown individual entered the apartment,
the police knocked at the door, entered the apartment, and asked the occupants to
leave the apartment. (Id. at 353, 343-44.) Mendia, Tom, Calvin, Rhonda, and Jose
left. (Id. at 344.) The officers then arrested the only individual who remained in
the apartment, who turned out to be the defendant. (Id. at 344-45.) To Mendia’s

85

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

knowledge, the money found in the toilet tank of her apartment was not there in the
early morning hours of December 1, 2010. {Id. at 348-49.)
2.

Defendant’s Wife’s Testimony

The defendant’s wife, Ashley Rogers, testified on his behalf. {Id. at 398.)
She testified that on the morning of December 1, 2010, she and the defendant took
their kids to day care around 10:00 a.m., and then went to a beauty shop where she
worked. {Id. at 400-08.) They got to the beauty shop around 10:30 a.m. {Id. at 405,
413.) While at the beauty shop, Shelan Peters, who is the defendant’s cousin,
telephoned. {Id. at 410-11.) Ms. Rogers answered, and Peters asked if she could
come over to Rhonda’s apartment and pick him up. {Id. at 415.) Ms. Rogers agreed.
{Id.)
She and the defendant then drove to the Woodgate apartments to pick him
up. {Id. at 417-18.) They arrived there about ten minutes later and parked in front
of Rhonda’s apartment building. {Id. at 420-23.) The defendant got out of their
vehicle and Ms. Rogers “heard some commotion” that sounded like a car hit
something but did not see any police. {Id. at 424-25.) She turned around and saw
four people running after exiting a smaller SUV-type vehicle. {Id. at 426-27.)
Then she saw the police “pulling up” in the area. {Id. at 428.)
While the police were arriving, Ms. Rogers “saw [the defendant] coming to the
door, he opened up the door of the apartment complex.” {Id. at 429.) She visually
indicated to him to “to go back off into the apartment complex.” {Id. at 429.) A
short time later, the defendant called her from inside Rhonda’s apartment and

86

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

asked what was going on. (Id. at 432.) She told him police were everywhere and
were chasing people. (Id. at 432-33.) He told her to leave the area, so she started
driving around. (Id. at 435.) She drove to a nearby park and the defendant
telephoned her, asking where she was at and what was going on. (Id. at 437-38.)
She told him there were police everywhere and somebody got shot. (Id. at 438.)
The next time she saw her husband was on television. (Id.)
IV. Discussion
The defendant seeks relief under 28 U.S.C. § 2255 on numerous grounds.
He alleges his counsel performed ineffectively during all phases of his prosecution,
including the pretrial phase, his trial, his sentencing, and his direct appeal. The
government discusses each of the defendant’s claims in connection with the
corresponding phase of his prosecution.
A. Claims Regarding Counsel’s Pretrial Performance
1.

Failure to Challenge Lawfulness of Search and Arrest

The defendant argues he was unlawfully arrested in apartment 1217 without
probable cause and officers searched it without consent or a warrant. On this basis,
he claims counsel ineffectively failed to file a motion to suppress the evidence found
in that apartment as a result of the arrest and the search, including the white Tshirt stained with bank dye he was wearing, as well as the $62,300 from the bank
that was found in the toilet. (See Doc. 146, at 3; Doc. 147, at 3-6.)
This Court should reject this claim both because (1) counsel’s decision not to
file a motion to suppress was a reasonable strategic choice that did not fall outside

87

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

the wide range of competence demanded of attorneys in criminal cases, so counsel
did not perform ineffectively, and (2) any motion to suppress on the grounds
advanced by the defendant would have been denied by this Court as lacking merit,
so the defendant was not prejudiced. See Orange, 447 F.3d at 797 (“When, as here,
the basis for the ineffective assistance claim is the failure to raise an issue, we must
look to the merits of the omitted issue. If the omitted issue is without merit, then
counsel’s failure to raise it is not prejudicial, and thus is not ineffective assistance.”)
(internal citation omitted); Sperry v. McKune, 445 F.3d 1268 (10th Cir. 2006)
(explaining that trial counsel’s failure to raise a meritless issue is not ineffective
assistance).
Counsel’s decision not to file the motion to suppress was reasonable a
reasonable strategic choice because no legal basis supported it. First, the defendant
had no Fourth Amendment standing to challenge the search of the apartment
because he did not live there, nor was he a social guest; rather, he claims he went to
the apartment to conduct a business transaction, i.e., “to determine what Mr.
Rogers would charge to conduct a complete tune-up” on a vehicle that Rhonda and
Baker shared. (See Doc. 148, at 19.) Because the defendant was supposedly in the
apartment to conduct a business transaction, he had no standing to object to its
search.2 And because he had no standing to challenge the search, he had no
A criminal defendant has no standing under the Fourth Amendment to object
to the admission against him evidence unlawfully seized from a third party.
Minnesota u. Carter, 525 U.S. 83, 90-91 (1998); Rakas v. Illinois, 439 U.S. 128, 148—
50 (1978). See Carter, 526 U.S. at 91 (holding that individuals in someone else’s
2

88

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

cognizable legal basis to object to the officers’ search of the apartment and their
consequent of the incriminating evidence against him.
Second, this Court would have denied any motion to suppress the evidence
found in the apartment as lacking merit on several alternatively sufficient grounds,
so the defendant was not prejudiced by counsel’s failure to file such motion. This
Court could have found that the officers’ entry into the apartment was justified
because exigent circumstances existed, constituting an exception to the warrant
requirement. The Supreme Court has recognized several types of exigent
circumstances that may justify a warrantless entry into a home, including the hot
pursuit of a fleeing felon, the imminent destruction of evidence, the need to prevent
a suspect’s escape, or the risk of danger to police officers or other people inside or
outside the home. Minnesota v. Olson, 495 U.S. 91, 100 (1990). Here, the officers
were in hot pursuit of the robbery suspects whom they knew they were at the
apartment complex. They reasonably inferred the suspects might force their way
into an apartment in the complex to escape the police, thereby creating a risk of
danger to the occupants of the apartments in the complex. These exigent
circumstances justified the warrantless entry.
Or, this Court could have found that the officers had probable cause to arrest
the defendant based on the circumstances they confronted at the time they entered
the apartment. When the officers entered the apartment and asked the occupants
home, who were there for only a few hours and only to perform a commercial
transaction, had no expectation of privacy in that home).

89

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

to leave, everyone left but the defendant. (Trial Tr. at 343-44, 353.) After everyone
had left, an officer saw the defendant stick his head out from one on the bedrooms
into the hallway, “look real quick and then go back” into the bedroom; the officer
hollered at him to step out into the hallway and he came out. (Id. at 203-04.)
These suspicious circumstances created probable cause the defendant was one of the
robbery suspects they had been looking for.
Or, this Court could have denied any motion to suppress on the basis that
even if the officers unlawfully arrested the defendant, it was legally inconsequential
because the officers did not find the incriminating evidence as a result of their
arrest of the defendant, but as a result of their entry into the apartment, which the
defendant had no standing to contest. See United States v. Forbes, 528 F.3d 1273,
1278 (10th Cir. 2008) (Under the independent source doctrine, evidence that has
been discovered by means wholly independent of any constitutional violation is
admissible against a criminal defendant, notwithstanding any antecedent Fourth,
Fifth, or Sixth Amendment violation.). While the defendant’s presence in the
apartment gave the officers reason to suspect evidence of the robbery would be in
the apartment, the defendant’s arrest was not the but-for cause of their discovery of
the evidence. See United States u. Coulter, 461 Fed. Appx. 763, 765-66 (10th Cir.
2012).
Accordingly, based on the existing law, counsel made a reasonable strategic
choice not to file a motion to suppress the evidence seized in the apartment because
no legal basis supported it; therefore, counsel did not perform ineffectively. And

90

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

because any such motion would have been denied by this Court as lacking merit, his
failure to file such motion did not prejudice the defendant.
See Orange, Sperry, supra.
2.

Failure to seek dismissal based on Speedy Trial Act

The defendant argues his counsel ineffectively moved to dismiss the
indictment based on asserted violations of the Speedy Trial Act, 18 U.S.C. §§
3161-3174. (Doc. 147, at 11-14.) He claims he “was deprived of a meritorious
Speedy Trial dismissal request in violation of the Speedy Trial Act” (id. at 13),
because counsel ineffectively failed to move for dismissal of the original Indictment
and Superseding Indictment, opting instead to file motions to continue the trial.
(See id. at 12 (“Instead of counsel filing a motion to dismiss both indictments for a
Speedy Trial violation, he filed multiply (sic) continuances.”).)3
Counsel’s decisions—including his decisions to seek continuance and not to
move to dismiss the Indictment and Superseding Indictment—were reasonable
tactical decisions that fell within the wide range of professionally competent
Before trial, counsel for the defendant and counsel for co-defendant, David
Hollis, filed joint motions to continue the trial under 18 U.S.C. 3161(h)(7)’s “ends of
justice” exclusion. (See Docs. 48, 65.) In the first motion, defendant’s counsel
represented that he needed more time to effectively prepare for trial in fight of a
recently-identified potential DNA match with the defendant in an unrelated and
unindicted bank robbery. (Doc. 48, at 2.) In the second motion, his counsel stated
he needed more time to prepare for trial because the government had filed a
Superseding Indictment and he needed more time to review and analyze the
government’s evidence. (Doc. 65, at 2-3.) This Court granted both motions based on
the reasons cited. (See Docs. 49, 66.) See 18 U.S.C. 3161(h)(7) (excluding from
STA’s 70-day time period “[a]ny period of delay resulting from a continuance ... if
the judge granted such continuance on the basis of his findings that the ends of
justice served by taking such action outweigh the best interest of the public and the
defendant in a speedy trial”).
3

91

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

assistance. Indeed, counsel reasonably moved to continue the trial on the basis that
he needed more time to prepare in light of new DNA evidence and the government’s
filing of a Superseding Indictment. See n.3. By any measure, these were sound
reasons to move to continue the trial; from counsel’s perspective at the time, the
alternative was to go to trial unprepared. Therefore, his counsel did not perform
deficiently in fifing for the continuances.
The defendant makes much of the fact that the government obtained a
Superseding Indictment and suggests that the government manipulated counsel
into fifing for the continuances, even suggesting that counsel “became loyal to the
government believing that the AUSA was being truthful and fa[i]r about the
government’s case.” (See Doc. 147, at 12.) However, this Court should give this
claim no shrift because the government did not do anything improper by either
seeking a Superseding Indictment or dismissing it before trial. Indeed, the fact that
the government obtained a Superseding Indictment from the grand jury, charging
an additional robbery not charged in the original Indictment, is dispositive evidence
that the government had sufficient evidence in its possession to bring the
Superseding Indictment, even though it eventually dismissed it and proceeded to
trial on the original Indictment. (See Doc. 89.) The government did absolutely
nothing improper.
As to prejudice, the defendant cannot bear his burden to show that he was
prejudiced by his counsel’s fifing of the continuances. This is because counsel for co­
defendant David Hollis obtained continuances in his case, and the continuances

92

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

granted in Hollis’ case had the effect of tolling the speedy trial clock in this
defendant’s case. See United States v. Vogl, 374 F.3d 976, 983 (10th Cir. 2004)
(An exclusion for delay attributable to one defendant is applicable to all co
defendants.); Henderson v. United States, 476 U.S. 321, 323 n.2 (1986) (“All
defendants who are joined for trial generally fall within the speedy trial
computation of the latest codefendant.”).
Moreover, the defendant was not prejudiced by his counsel’s failure to move
to dismiss the Indictment because no legal basis existed for this Court to grant a
dismissal with prejudice. In fact, “[a] district court does not have unfettered
discretion to dismiss an indictment with prejudice for violation of the STA.” United
States v. Rushin, 642 F.3d 1299, 1308 (10th Cir. 2011). Its discretion is cabined by §
3162(a)(2), stating that before dismissing with prejudice, the court shall consider
“the seriousness of the offense; the facts and circumstances of the case which led to
dismissal; and the impact of a reprosecution on the administration of justice.” Here,
these factors weighed heavily against the granting of any motion to dismiss with
prejudice because bank robbery is a serious offense, counsel moved for both
continuances in reaction to the government’s ongoing investigation of the defendant
and its filing of a Superseding Indictment; and the defendant suffered no prejudice
as a result of the delay.
Finally, insofar as the defendant alleges a statutory violation of his right to
speedy trial, as opposed to a constitutional violation, his claim is not even

93

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

cognizable in the instant § 2255 context.4 See United States v. Taylor, 454
F.3d 1075, 1078-79 (10th Cir. 2006) (dismissing defendant’s claims alleging a
violation of a statutory right to a speedy trial in § 2255 context, noting that a
statutory right, as opposed to a constitutional right, will not support issuance of a
certificate of appealability).
3.

Failure to move for dismissal of original indictment
based on vindictive prosecution or prosecutorial
misconduct

The defendant suggests that counsel ineffectively failed to raise a “vindictive
prosecution” or “prosecutorial misconduct” claim during his pre-trial and trial
stages. (Doc. 146, at 8.) He claims the government sought and obtained the
Superseding Indictment from the grand jury because “he would not plea[d] guilty to
any charges in his Original Indictment,” and then “dismissed the Superseding
Indictment without reason on the first day of movant’s trial.” (Id.) This claim fails
under both Strickland prongs because no legal basis existed for counsel to succeed
on such a claim in light of existing Supreme Court precedent.
4

In his pleadings, the defendant focuses his claim on the statutory provisions
of the Speedy Trial Act. (See Doc. 147, at 11-13.) Although he claims in passing
that he was deprived of his constitutional right to a speedy trial (see id. at 13), he
does not make the case for a constitutional violation under the factors set out in
Barker v. Wingo, 407 U.S. 514, 530 (1972) (stating relevant factors bearing on a
constitutional violation include the length of the delay, reason for the delay, the
defendant’s assertion of his speedy trial right, and whether the delay prejudiced the
defendant). For example, he does not claim that the delay prejudiced his ability to
prepare his case and defend himself on the instant charges, nor does he identify any
evidence that was lost or witnesses he could not locate as a result of the delay.

94

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

The government acted within its discretion both by seeking and moving to
dismiss the Superseding Indictment. The Attorney General and United States
Attorneys retain ‘“broad discretion”’ to enforce the Nation’s criminal laws. Wayte
v. United States, 470 U.S. 598, 607 (1985) (quoting United States v. Goodwin, 457
U.S. 368, 380, n. 11 (1982)). They have this latitude because they are designated by
statute as the President’s delegates to help him discharge his constitutional
responsibility to “take Care that the Laws be faithfully executed.” U.S. Const., Art.
II, § 3; see 28 U.S.C. §§ 516, 547. Consequently, “[t]he presumption of regularity
supports” their prosecutorial decisions and, “in the absence of clear evidence to the
contrary, courts presume that they have properly discharged their official duties.”
United States v. Chemical Foundation, Inc., 272 U.S. 1, 14—15 (1926). In the
ordinary case, “so long as the prosecutor has probable cause to believe that the
accused committed an offense defined by statute, the decision whether or not to
prosecute, and what charge to file or bring before a grand jury, generally rests
entirely in his discretion.” Bordenkircher v. Hayes, 434 U.S. 357, 364 (1978).
Notwithstanding this broad discretion, a defendant “may not be punished for
exercising a protected statutory or constitutional right.” Goodwin, 457 U.S. at 372.
A rebuttable presumption of vindictiveness arises where the government takes
unilateral action, such as obtaining a superseding indictment on additional or more
serious charges, in a context that indicates a reasonable likelihood of vindictiveness
as a response to the defendant’s exercise of his rights. See id. at 372-77. Where the
facts do not give rise to a presumption of vindictiveness, the defendant must show

95

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67
actual vindictiveness by proving that the government’s action was taken solely to
penalize the defendant. See id. at 380-81, 380 n. 12.
Contrary to the defendant’s suggestion, the filing of a superseding indictment
before trial—after plea negotiations have failed—provides no basis for a vindictiveprosecution claim. The Supreme Court squarely held as much in Bordenkircher.
There, the Court considered an allegation of vindictiveness that arose in a pretrial
setting. The prosecutor in that case had explicitly told the defendant that if he did
not plead guilty and “save the court the inconvenience and necessity of a trial” he
would return to the grand jury to obtain an additional charge that would
significantly increase the defendant’s potential punishment. Id. at 358-59. The
defendant refused to plead guilty and the prosecutor obtained the indictment. Id. at
359. It was not disputed that the additional charge was justified by the evidence,
that the prosecutor was in possession of this evidence at the time the original
indictment was obtained, and that the prosecutor sought the additional charge
because of the accused’s refusal to plead guilty to the original charge. Id. The
government obtained a conviction on the new indictment. Id. The Court held that
the Due Process Clause of the Fourteenth Amendment did not prohibit a prosecutor
from carrying out a threat, made during plea negotiations, to bring additional
charges against an accused who refused to plead guilty to the offense with which he
was originally charged. See id. at 365 (“We hold only that the course of conduct
engaged in by the prosecutor in this case, which no more than openly presented the
defendant with the unpleasant alternatives of forgoing trial or facing charges on

96

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

which he was plainly subject to prosecution, did not violate the Due Process Clause
of the Fourteenth Amendment.”).
Likewise, in Goodwin, the Court held similarly in a pretrial context. There,
the government initially charged the defendant with misdemeanor and petty
offenses including assault. 457 U.S. at 370. He initiated plea negotiations with the
government but later advised that he did not wish to plead guilty and wanted a jury
trial. Id. at 371. Six weeks later, the government obtained a new indictment
charging the defendant with one felony count of assault and other charges arising
from the same incident. Id. A jury convicted him on one felony count and one
misdemeanor count. Id.
After being convicted, the defendant moved to set aside the verdict on the
ground of prosecutorial vindictiveness, contending that the felony indictment gave
rise to an impermissible appearance of retaliation. Id. The Fourth Circuit reversed
his conviction. Although the circuit court concluded that the prosecutor did not act
with actual vindictiveness in seeking a felony indictment, it nonetheless applied a
legal presumption of prosecutorial vindictiveness, holding that the Due Process
Clause of the Fifth Amendment prohibits the government from bringing more
serious charges against a defendant after he has invoked his right to a jury trial.
unless the prosecutor comes forward with objective evidence to show that the
increased charges could not have been brought before the defendant exercised his
rights. Id. at 372.

97

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

The Supreme Court reversed the Fourth Circuit and declined to adopt such a
presumption in a pretrial setting. Id. at 381-83. In reversing, the Supreme Court
recognized that strong public policy rationales weighed against applying such a
presumption. See id. at 379 n.10; id. at 382 n.14. Significantly, it noted: “A
prosecutor should remain free before trial to exercise the broad discretion entrusted
to him to determine the extent of the societal interest in prosecution. An initial
decision should not freeze future conduct.” Id. at 382. Accordingly, the Court failed
to find a due process violation because no evidence of actual vindictiveness existed
and a presumption of vindictiveness did not apply. Id. at 384.
Given this legal landscape, counsel’s decision not to file a motion alleging
vindictive prosecution on the basis suggested by the defendant was not outside the
wide range of professionally competent assistance. The government does not
acquiesce in the defendant’s characterization of the government’s motives for
bringing the Superseding Indictment, but even assuming arguendo that the
characterization is correct, any claim would have still failed because Bordenkircher
and Goodwin clearly allow the government to bring additional and more serious
charges in a pretrial setting after plea negotiations have failed. Thus, counsel did
not deficiently perform in failing to file a prosecutorial vindictiveness claim because
no legal basis existed for it. As a tactical matter, counsel could have reasonably
deemed such a claim foreclosed by Bordenkircher and Goodwin, and such a decision
would have been within the wide range of professionally competent assistance.

98

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

Moreoever, the defendant does not identify any evidence of actual vindictiveness
that his counsel could have pointed to sustain such a claim.
The defendant also fails to show Strickland prejudice because counsel’s
failure to bring the claim did not prejudice the defendant for two reasons. First,
this Court would have been constrained to deny any such claim based on
Bordenkircher, Goodwin, as well as cases from the Tenth Circuit. See, e.g., United
States v. Sarracino, 340 F.3d 1148, 1177-79 (10th Cir. 2003) (no vindictive
prosecution occurred when, after defendant refused to accept the final plea proposal
to a manslaughter indictment, the prosecution obtained a superseding indictment
for second degree murder). Second, as the defendant points out, the government
dismissed the Superseding Indictment prior to the trial {see Doc. 89), so the filing of
the Superseding Indictment did not affect the outcome of his prosecution in any
respect. The defendant’s claim of prejudice hinges on the notion that his counsel
could have obtained dismissal of both the original Indictment and the Superseding
Indictment with a successful prosecutorial vindictiveness claim, but such a remedy
would not have been available to this Court in fight of the aforementioned
authorities.
4.

Failure to investigate and interview witnesses.

The defendant argues that counsel failed to properly investigate his case and
interview witnesses. (See Doc. 147, at 14-15.) He asserts counsel ineffectively failed
to interview any witnesses who were in apartment 1217 at the time of his arrest,
and, had he done so, counsel “could have prevented ‘Raquel Mendia’ [who was inside

99

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67
apartment 1217] from testifying for the government and changing her story on the
last day of Movant’s trial,” both by advising her “about what to do if the government
started to threaten or harass her,” and by “obtain[ing] a sworn affidavit of Ms.
Mendiafs] first statement to WPD Officers, so that her first testimony would have
been sworn under oath.”5 (Id. at 14-15.)
This claim fails under both Strickland prongs. Counsel’s decision not to
interview Mendia or others in apartment 1217 was a reasonable strategic choice for
four reasons. See Wallace v. Ward, 191 F.3d 1235, 1247 (10th Cir. 1999) (“Counsel.
. . may make a reasonable decision that investigation is unnecessary.”). First,
counsel was not clairvoyant and had no way of knowing that Mendia would change
her story, so he had no reason to lock in her story with an affidavit. Second, as far
as counsel knew, Mendia’s first story was helpful to his client—because in her first
account she told police she did not see the defendant enter her apartment, see n.5,
supra—and counsel could have reasonably perceived that interviewing Mendia
could backfire by giving her an opportunity to change her story in an unhelpful way.
Third, the defendant does not provide any credible reason for this Court to conclude
that interviews of other witnesses in the apartment would have lead to favorable or
5

(See Trial Tr. at 354-55 (Mendia testified on cross-examination that she
originally told Wichita police officers that she did not know who answered the door
of the apartment at the time the defendant entered but she changed her testimony
on the morning of trial—almost a year later—because she “was just thinking about
what could happen to me if I lied on the stand, and what would happen to my
daughter.”); id. at 335-39 (Mendia testified on direct that she heard a loud pounding
at the door and saw an unknown sweaty guy holding a jacket in front of him who
proceeded to walk into the apartment).)

100

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

exculpatory evidence, and counsel could have likewise reasonably concluded as
much, thus obviating any need for further interviews. Fourth, his counsel probably
did not know what these other witnesses would say in an interview, and the
possibility existed that they could say something that incriminated the defendant.
Second, the defendant cannot show that he was prejudiced by counsel’s
failure to interview witnesses for three reasons. First he does not establish by a
reasonable probability that Mendia or any other occupant would have consented to
an interview; that they would have given favorable or exculpatory information
during the interviews; or that they would have signed an affidavit if presented with
one. See United States v. Green, 882 F.2d 999, 1008 (5th Cir. 1989) (“A defendant
who alleges a failure to investigate on the part of his counsel must allege with
specificity what the investigation would have revealed and how it would have
altered the outcome of the trial.”). Second, even if counsel had interviewed Mendia
and locked her into her initial story with an affidavit, she still could have changed
her story on the morning of trial as she did. Third, even if he had locked Mendia
into her first story and she did not change her testimony on the day of trial, it still
would not have changed the result of the trial because officers still would have
found the defendant in the apartment wearing a T-shirt that contained dye from the
bank and money from the bank, and the defendant still would have been convicted.
Accordingly, he fails to show that he suffered prejudice from his counsel’s allegedly
deficient representation.
B.

Claims regarding counsel’s performance at trial

101

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

1.

Failure to raise fair cross-section claim

The defendant argues that counsel “render[ed] ineffective assistance when he
failed to object to the under representation of black m[e]n or any minority males in
the grand jury pool or the petit jury at trial.” (See Doc. 148, at 9.) More specifically,
he complains that his jury pool contained only two African-American males and the
petit jury contained none. (Id. at 9-10.)
Counsel was not ineffective for failing to object because no apparent legal
basis existed for such a claim. In order to establish a prima facie violation of the
fair cross section requirement of the Sixth Amendment and the Jury Selection and
Service Act, 28 U.S.C. § 1861, a defendant must show: “(1) that the group alleged to
be excluded is a ‘distinctive’ group in the community; (2) that the representation of
this group in venires from which juries are selected is not fair and reasonable in
relation to the number of such persons in the community; and (3) that this
underrepresentation is due to systematic exclusion of the group in the jury selection
process.” Duren v. Missouri, 439 U.S. 357, 364 (1979)). The Sixth Amendment
demands that the jury venire represent a “fair cross-section” of the community.
Berghuis v. Smith, 559 U.S. 314, 319 (2010); Taylor v. Louisiana, 419 U.S. 522, 528
(1975).
The defendant does not attempt to show that his counsel could have, but did
not, establish any of these elements. He brings forth no statistics to demonstrate
that black men were underrepresented in relation to the number of such persons in
the community from which the jury was drawn. He presents no basis upon which

102

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67
his counsel could have argued that the alleged underrepresentation was due to the
systematic exclusion of African-American males in the jury selection process.
Accordingly, he cannot show that his counsel’s strategic decision not to object was
unreasonable or ineffective under Strickland.
Nor can he show prejudice from the fact that his counsel failed to object. He
cannot do so because this Court would have denied any such motion even if his
counsel had raised it, because his counsel could not have made the requisite
showings under Duren. The defendant claims his counsel should have objected
under Batson v. Kentucky, 476 U.S. 79 (1986), but a Batson challenge would
likewise have been unsuccessful. See id. at 86 (noting settled law that “a defendant
has no right to a petit jury composed in whole or in part of persons of his own race,”
but he “does have the right to be tried by a jury whose members are selected
pursuant to nondiscriminatory criteria”) (internal quotations omitted; emphasis
added).
2.

Failure to allow defendant to testify on his own behalf

The defendant asserts counsel “render [ed] ineffective assistance when he
failed to allow Movant to testify on his own behalf, as instructed to do so by
Movant.” (Doc. 148, at 2.) He claims he told counsel he wanted to testify at the
trial but counsel rested his case without allowing him to testify, in violation of his
5th and 6th Amendment rights. (Id. at 2; see also id. at 3-5.)
This Court should reject this claim because no factual basis exists for it.

103

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

Counsel has submitted an affidavit, averring that after the defendant’s wife
testified at trial, he asked the defendant if he wanted to testify, and the defendant
replied that he did not. See Affidavit of Sean C. McEnulty, dated 1/8/14 (Attach. A.)
See United States v. Lee-Speight, 529 Fed. Appx. 903, 905 n.2 (10th Cir. 2013)
(noting “sworn statements generally constitute competent evidence in a § 2255
action”) (quotations omitted). Accordingly, because the defendant’s counsel did not
ineffectively fail to allow the defendant to testify, his claim fails under Strickland’s
performance prong.
In addition, even assuming arguendo that the defendant could satisfy
Strickland’s performance prong, he still could not show prejudice because his
testimony would not have changed the result of the trial. It would not have
changed the result of because the defendant could not have effectively challenged
the government’s evidence that bank dye was found his shirt, which conclusively
linked him to the robbery. As noted, Randall Fornshell, a forensic scientist with the
Sedgwick County Regional Forensic Science Center, tested the red dye on the
defendant’s white T-shirt. (Trial Tr. at 302-04.) He tested the shirt to check “for
bank dye components” and found “the bank dye itself, which is l-(methylamino)
anthraquinone” on the T-shirt. (Id. at 307, 314-15.) He stated that this substance
“is a red dye that’s not found normally on any product” except taillight lenses of a
car. (Id. at 308, 315.) He explained the dye in taillight lenses could not be
transferred from the taillight to another object just by rubbing against the taillight

104

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

in plastic so it doesn’t rub off.” (Id. at 308, 316.) Fornshell could not state how long
the dye had been on the shirt. (Id. at 319-20.)
The defendant suggests that he would have testified that the dye got on his
shirt in some manner because he was present in his wife’s hair salon handling
chemicals on the morning of the robbery. (See Doc. 148, at 18 (defendant claiming
he and his wife went to his wife’s beauty salon on morning of robbery where he
cleaned salon and took inventory of hair care products and chemicals used at the
salon).) But this testimony could not have overcome Mr. Fornshell’s testimony that
bank dye was found on his shirt. Thus, even if the defendant had testified, his
testimony would not have changed the result of the trial.
3.

Failure to object to bank robbery instruction—No. 18

The defendant claims his counsel ineffectively failed to object to jury
instruction 18 (Attach. B), which instructed on the elements of the offense charged
in Count 1, the bank robbery count. (See Doc. 147, at 6-11.) He claims that in
instruction 18 this Court erroneously instructed the jury on the elements of a bank
robbery charge tracking the elements of 18 U.S.C. § 2113(d), which he was not
charged with violating, and thereby impermissibly constructively amended Count 1
of the Indictment, which charged a violation of 18 U.S.C. § 2113(a); he correctly
points out that 18 U.S.C. § 2113(d) contains an element regarding the use of a
dangerous weapon or device, while § 2113(a) does not. 6 (Id.)
(See Doc. 12, Indictment, Count 1 (charging under § 2113(a) that defendants
“by force, violence, and intimidation did take from the person or presence of
another, money, namely $102,743.00 United States Currency, belonging to, and in
6

105

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

The prohibition on constructive amendments is derived from (1) the
Fifth Amendment which limits a defendant's jeopardy to offenses charged by
a grand jury, and (2) the Sixth Amendment which guarantees the defendant
notice of the charges against him. A constructive amendment occurs when
the Government, through evidence presented at trial, or the district court,
through instructions to the jury, broadens the basis for a defendant’s
conviction beyond acts charged in the indictment. To constitute a constructive
amendment, the district court proceedings must modify an essential element
of the offense or raise the possibility that the defendant was convicted of an
offense other than that charged in the indictment. Where an indictment
properly pleads violation of a statute, and the defendant was not misled
about the nature of the charges, his substantive rights are not prejudiced.
United States v. Van Tieu, 279 F.3d 917, 921 (10th Cir. 2002) (internal citations
omitted).

-

In light of these authorities, the government is constrained to agree with the
defendant that this Court constructively amended the Indictment by instructing the
jury to determine whether “the defendant put some person’s life in jeopardy by the
use of a dangerous weapon or device, while engaged in the taking of the money.”
the care, custody, control, management, and possession of, the Equity Bank in
Wichita, Kansas, a bank whose deposits were then insured by the [FDIC]”).) See.18
U.S.C. § 2113(a) (“Whoever, by force and violence, or by intimidation, takes, or
attempts to take, from the person or presence of another ... in the care, custody,
control, management, or possession of any bank . .. Shall be fined under this title or
imprisoned not more than twenty years, or both”); 18 U.S.C. § 2113(d) (“Whoever, in
committing, or in attempting to commit, any offense defined in subsections (a) and
(b) of this section, assaults any person, or puts in jeopardy the life of any
person by the use of a dangerous weapon or device, shall be fined under this
title or imprisoned not more than twenty-five years, or both.”) (emphasis added).
(See Doc. 98, Instr. No. 18 (instructing jury on Count 1 and setting forth following
elements: (1) “defendant intentionally took money from the person”); (2) “the money
belonged to or was in the possession of a federally insured bank at the time of the
taking”; (3) “the defendant took the money by means of force and
intimidation”; and (4) “the defendant put some person’s life in jeopardy by
the use of a dangerous weapon or device, while engaged in the taking of
the money”).)
106

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

(Doc. 98, Instr. No. 18.) This language tracks an element of a charge under
18 U.S.C. § 2113(d), which the government did not charge the defendant with
violating. See n.6, supra. By instructing the jury on this element, this Court
impermissibly modified an essential element of the offense, resulting in a
constructive amendment to the indictment under Van Tieu.1 Cf. United States v.
Brown, 400 F.3d 1242, 1252-53 (10th Cir. 2005) (district court constructively
amended indictment in § 924(c) prosecution where indictment charged defendant
with carrying a gun under § 924(c), but instruction directed jury to convict him if he
either used or carried a gun). Based on this concession, the government must also
agree that the defendant’s counsel performed ineffectively by failing to object to
instruction 18, which constructively amended the Indictment. Thus, he has
satisfied Strickland’s performance prong.
Nonetheless, the defendant’s claim still founders because he cannot show
that his counsel’s failure to object to the instruction prejudiced him as required to
satisfy Strickland’s prejudice prong. To prevail on this prong, a defendant “must
show there is a reasonable probability that, but for his counsel’s unprofessional
errors, the result of the proceeding would have been different.” Strickland, 466
This Court’s instruction tracked 10th Circuit Pattern Instruction 2.77. See
10th Cir. Pattern Crim. Jury Instr. 2.77 (2011) (Attach. C). The Use Note of 2.77
cautions: “This instruction also presupposes that the indictment charges a violation
of subsections (a) and (d) in the same count. If a subsection (d) violation is not
alleged, the fourth element and its corresponding definitions would be deleted.” Id.
(Use Note). The Use Note further explains that “a violation of subsection (a) alone,
i.e., the first three elements above, is a lesser included offense of the alleged
violation of subsections (a) and (d) combined, i.e., all four elements.” Id.
7

107

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

U.S. at 694. A “reasonable probability” is a “probability sufficient to undermine
confidence in the outcome.” Id. This, in turn, requires the court to focus on “the
question whether counsel’s deficient performance rendered] the result of the trial
unreliable or the proceeding fundamentally unfair.” Lockhart v. Fretwell, 506 U.S.
364, 372 (1993).
The defendant cannot demonstrate prejudice under these standards. First,
notwithstanding the defective instruction, the defendant still received a fair trial
with a reliable result because instruction 18 did not relieve the government of
proving the elements of the § 2113(a) violation; in fact, it required the government
to prove the § 2113(a) violation. As noted in footnote 7, supra, instruction 18
tracked Tenth Circuit Pattern Instruction 2.77, by instructing on the four elements
listed in that instruction. Compare 10th Cir. Pattern Crim. Jury Inst. 2.77 (2011)
(listing four elements) with Doc. 98, Instr. No. 18 (setting forth identical elements).
The first three of these elements accurately set forth the elements of the § 2113(a)
violation. See 10th Cir. Pattern Crim. Jury Instr. 2.77 (2011) (stating in Use Note
that “[i]f a subsection (d) violation is not alleged, the fourth element and its
corresponding definitions would be deleted”). So in finding the defendant guilty on
Count 1 based on the elements set forth in in instruction 18, the jury necessarily
had to find that the defendant committed the three elements constituting a
violation of § 2113(a).
Stated differently, because a § 2113(a) violation is a lesser included offense of
a § 2113(d) violation, the jury’s finding that he violated all of the elements of §

108

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

2113(d) necessarily encompassed a finding that he violated § 2113(a). The Supreme
Court has described § 2113(a) as “the same offense as § 2113(d) without the
elements of aggravation.” Green v. United States, 365 U.S. 301, 303 (1961). See also
United States v. Fletcher, 121 F.3d 187, 193 (5th Cir. 1997) (“[T]he elements of §
2113(d) include all of the elements of § 2113(a), plus the additional element of
assault.”), overruled on other grounds by United States v. Cotton, 535 U.S. 625
(2002).

Second, even if counsel had objected to instruction 18, a reasonable
probability exists that the result of the trial would have been the same. If counsel
had objected that instruction 18 contained the superfluous element relating to a
dangerous weapon or device, this Court would have simply removed it and
instructed the jury on the first three elements in instruction 18, as advised in the
Use Note to Pattern Instruction 2.77. This Court may confidently conclude that the
jury still would have found the defendant guilty of these three elements because the
jury considered these exact three elements in instruction 18 and found that the
government proved each of those elements. Accordingly, the defendant cannot
claim that but for counsel’s errors the result of the proceeding would have been
different; indeed, it would have been exactly the same.
Third, the defendant cannot show that he suffered any prejudice at
sentencing as a result of the defective instruction. The statutory maximum
sentence under § 2113(a) is 20 years, see 18 U.S.C. § 2113(a). This Court sentenced
the defendant to 150 months’ custody on Count 1 (Doc. 120, J. at 2), which is well

109

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

under that statutory maximum. The jury’s finding that the defendant committed
the § 2113(d) offense therefore had no impact on his sentence.
4.

Failure to object to aiding-and-abetting instruction on §
924(c) count—Instruction 21

In his Motion to Supplement his § 2255 motion, which he filed on March 18,
2014 {see Doc. 155), the defendant argues his counsel “render[ed] ineffective
assistance of counsel when he did not object to the Trial Court’s [§] 924(c) aiding
& abetting jury instructions.” (Doc. 155, at 2.) Relying on the Supreme Court’s
recent decision in Rosemond v. United States, 134 S. Ct. 1240 (Mar. 5, 2014),8 he
claims that this Court’s aiding-and-abetting instruction (Doc. 98, Instr. No. 21
(Attach. D)), which instructed the jury it could find the defendant guilty on each of
the charged counts as an aider-and-abettor, was deficient as to the § 924 count of
the Indictment, i.e., Count 2. Drawing on Rosemond, he argues the instruction was
defective because it did explain to the jury that he needed advance knowledge of the
firearm’s presence, and it did not direct the jury to determine when he obtained the
requisite knowledge. (Doc. 155, at 3.) {See Doc. 98, Instr. No. 21 (instructing that
jury could find defendant guilty if government proved that “someone else committed
the charged crime,” and defendant “intentionally associated himself in some way
8

See Rosemond, 134 S. Ct. at 1251-52 (finding the district court erred in
instructing jury that defendant Rosemond was guilty of aiding and abetting use of a
firearm during a drug-trafficking offense if “(1) [he] knew his cohort used a firearm
in the drug trafficking crime, and (2) [he] knowingly and actively participated in the
drug trafficking crime” because the instruction “did not explain that Rosemond
needed advance knowledge of a firearm’s presence” and “[i]n telling the jury to
consider merely whether Rosemond “knew his cohort used a firearm,” the court did
not direct the jury to determine when Rosemond obtained the requisite knowledge”).
110

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

with the crime and intentionally participated in it as he would something he wished
to bring about” and “consciously shared the other person’s knowledge of the
underlying criminal act and intended to help him.”).) Because his counsel did not
object to the instruction on this basis, he asserts his counsel performed ineffectively
and this Court should vacate his convictions on Counts 2 and 3.9
This Court should deny the defendant relief on this claim. First, counsel did
not ineffectively fail to raise this claim during trial because it was not available
during defendant’s trial. The defendant’s trial occurred in November 2011, and the
Supreme Court did not grant certiorari in Rosemond until May 28, 2013, see
Rosemond v. United States, 133 S. Ct. 2734 (2013), and it did not decide the case
until March 5, 2014—more than two years after the defendant’s trial. See 134 S.
Ct. 1240. Therefore, judged from counsel’s perspective at the time of trial, counsel’s
decision not to challenge instruction 21 as to the § 924(c) count was manifestly
reasonable. See Strickland, 466 U.S. at 689 (“A fair assessment of attorney
performance requires that every effort be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at the time.”); Bullock v. Carver,
297 F.3d 1036, 1052 (10th Cir. 2002) (“[W]e have rejected ineffective assistance
claims where a defendant faults his former counsel not for failing to find existing
law, but for fading to predict future law and have warned that clairvoyance is not a
Rosemond is facially inapplicable to offenses not charged under § 924(c), and
therefore is irrelevant to the defendant’s conviction for being a felon in possession of
a firearm under Count 3. Therefore, Rosemond presents no basis for reversal of his
conviction on Count 3.
9

ill

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

required attribute of effective representation.”) (internal quotation marks omitted).
Cf. United States v. Phillips, 204 Fed. Appx. 765 (10th Cir. 2006) (Defense counsel’s
failure to object to 65-month sentence for possession of a firearm by a convicted
felon on constitutional grounds under Blakely was not ineffective assistance of
counsel, where defendant was sentenced even before certiorari was granted in
Blakely.). Therefore, the defendant’s claim fails under Strickland’s performance
prong.
Moreover, his counsel’s failure to challenge the instruction did not prejudice
him because, even if he had raised such a challenge, this Court would have been
constrained to deny it based on then-existing law, which did not support it before
Rosemond was decided. See Orange, 447 F.3d at 797 (“When, as here, the basis for
the ineffective assistance claim is the failure to raise an issue, we must look to the
merits of the omitted issue. If the omitted issue is without merit, then counsel’s
failure to raise it is not prejudicial, and thus is not ineffective assistance.”) (internal
citation omitted). The defendant’s claim thereby fails under Strickland’s prejudice
prong.
It bears noting that the defendant is not otherwise entitled to relief under
Rosemond—even if this Court did erroneously instruct the jury—because
Rosemond is not retroactive on collateral review. This is so because “a new rule is
not ‘made retroactive to cases on collateral review’ unless the Supreme Court holds
it to be retroactive.” Tyler v. Cain, 533 U.S. 656, 663 (2001). The Rosemond rule
was announced in a direct appeal without the Supreme Court expressly holding it to

112

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

be retroactive to cases on collateral review. Further, “the clearest instance, of
course, in which [the Supreme Court] can be said to have ‘made’ a new rule
retroactive is where [it has] expressly held the new rule to be retroactive in a case of
collateral review and applied the rule to that case.” Tyler, 533 U.S. at 668
(O’Connor, J., concurring). But, the Supreme Court has not so stated in Rosemond.
Accordingly, Rosemond provides no basis for this Court to vacate the defendant’s
conviction on Count 2 or 3.
C.

Claims regarding counsel’s performance at sentencing
1.

Failure to move for dismissal of Count 2 on basis that
Count 1 was not a qualifying predicate “crime of
violence”

The defendant claims counsel “was ‘Ineffective’ for failing to move for dismissal of
count 2 during sentencing stage after movant was unconstitutionally convicted of
it.” (Doc. 146, at 7.) Count 2 charged that the defendant, David Hollis, and Shelan
Peters
did knowingly possess firearms and brandish firearms ... in furtherance of a
crime of violence for which they may be prosecuted in a court of the United
States, to wit: Bank Robbery in violation of Title 21, United States Code,
Section 2113(a).
In violation of Title 18, United States Code, Section 924(c)(1)(A) and
Section 2.
(Doc. 12, Indictment at 2.) He explains: “Due to movant being indicted under the
‘Unarmed Bank Robbery’ provision [§ 2113(a)], Counsel should have requested that
his § 924(c) conviction be dismissed on the ground that a 924(c) charge is not

113

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67
applicable to an ‘Unarmed Bank Robbery charge. This would be unconstitutional.”
(Doc. 146, at 7.)
The defendant is incorrect. A bank robbery charge under § 2113(a) is a
qualifying crime of violence that will support a prosecution under 18 U.S.C. §
924(c). Relevantly, 18 U.S.C. § 924(c)(3) defines a “crime of violence” as an “offense
that is a felony and—
(A) has as an element the use, attempted use, or threatened use of
physical force against the person or property of another, or
(B) that by its nature, involves a substantial risk that physical force
against the person or property of another may be used in the course of
committing the offense.
18 U.S.C. § 924(c)(3)(A)&(B). The offense of bank robbery under § 2113(a) has as
an element the use, attempted use, or threatened use of physical force against the
person or property of another, so it qualifies. See 18 U.S.C. § 2113(a) (“Whoever, by
force and violence, or by intimidation, takes, or attempts to take, from the person or
presence of another .. ..) (emphasis added). See also United States v. Thody, 978
F.2d 625, 630 n.2 (10th Cir. 1992) (“Bank robbery is a crime of violence. 18 U.S.C. §
924(c)(3).”); United States v. Thornton, 539 F.3d 741,748 (7th Cir. 2008)
(“Intimidation is the threat of force.”); United States v. Maddalena, 893 F.2d 815,
820 (6th Cir. 1989) (“A bank robbery involves a confrontation between two people,
and can arguably only succeed where there is substantial risk of physical force.”).
Thus, defendant’s claim fails under both Strickland prongs. That is,
counsel’s decision not to move for dismissal of Count 2 on the basis suggested by the
defendant was reasonable because no legal basis existed for such a claim; therefore,
114

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

counsel’s failure to file the claim did not constitute ineffective performance.
Further, counsel’s failure to file the claim did not prejudice the defendant because
this Court would have been constrained to deny it based on the authorities
discussed above. See Orange, Sperry, supra.
2.

Failure to challenge 84-month sentence on Count 2 on basis of
Apprendi and Alleyne

Relying on Apprendi v. New Jersey, 530 U.S. 466 (2000), and Alleyne v.
United States, 133 S. Ct. 2151 (Jun. 17, 2013), the defendant argues that his
counsel ineffectively failed to challenge this Court’s 84-month sentence on Count
2; he claims he should have been sentenced to no more than 60 months. (See Doc.
147, at 15-16.) He correctly points out that although he was charged in Count 2
with possessing and brandishing a firearm, this Court’s instruction on Count 2—
instruction 19—omitted any reference to brandishing. (See Doc. 12, Indictment at 2
(charging in Count 2 that defendant “did knowingly possess firearms and brandish
firearms ... in furtherance of a crime of violence”); Doc. 98, Instr. No 19 (instructing
that to convict defendant on Count 2, jury must find that he (1) “committed the
crime of Bank Robbery as charged in Count 1 of the indictment, which is a crime of
violence”; and (2) “possessed a firearm in furtherance of this crime”).)
As a result, he posits that because “the jury never found Movant guilty of
‘brandishing’ which is an element under the 924(c)(1) statu[t]e that carries a
penalty of 84 [months] minimum,” this Court “did not have Jurisdiction to sentence
Movant toQ 84 months for ‘brandishing’ of a firearm once the jury had already found

115

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67
him guilty ‘only’ for possession.” (Doc. 147, at 16.) Accordingly, he claims “Counsel
was ineffective for [not] objecting to Movant’s 84 months sentence in violation of
Movant’s Fifth and Sixth Amendment rights.” (Id.) This claim lacks merit.
a.

Legal Authorities

Section 924(c) of Title 18 provides that “any person who, during and in
relation to any crime of violence or drug trafficking crime . . ., uses or carries a
firearm, or who, in furtherance of any such crime, possesses a firearm, shall, in
addition to the punishment provided for such crime of violence or drug trafficking
crime,” receive a sentence of “not less than 5 years.” 18 U.S.C. § 924(c)(l)(A)(i).
Section 924(c) provides for a higher mandatory minimum sentence if the firearm
was brandished (7 years), id. § 924(c)(l)(A)(ii); or discharged (10 years), id. §
924(c)(1)(A)(iii); if the firearm was a short-barreled rifle, shotgun, or semi automatic
assault weapon (10 years), id. § 924(c)(l)(B)(i); or a machinegun or destructive
device (30 years), id. § 924(c)(l)(B)(ii).
In Apprendi, the Court held that “[o]ther than the fact of a prior conviction,
any fact that increases the penalty for a crime beyond the prescribed statutory
maximum must be submitted to a jury, and proved beyond a reasonable doubt.”
Apprendi, 530 U.S. at 490 (emphasis added). After deciding Apprendi, the Court
held in Harris v. United States, 536 U.S. 545 (2002), that “brandishing,” which sets
a 7-year mandatory minimum sentence in § 924(c) prosecutions but does not
increase the maximum sentence, is a sentencing factor for the judge to find, not an
element that must be found by the jury. However, in Alleyne v. United States, 133

116

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

S. Ct. 2151 (Jun. 17, 2013), the Court overruled Harris on the basis of Apprendi’s
rationale:
Harris drew a distinction between facts that increase the statutory
maximum and facts that increase only the mandatory minimum. We
conclude that this distinction is inconsistent with our decision in Apprendi v.
New Jersey, 530 U.S. 466, 120 S. Ct. 2348, 147 L. Ed. 2d 435 (2000), and with
the original meaning of the Sixth Amendment. Any fact that, by law,
increases the penalty for a crime is an ‘element’ that must be submitted to
the jury and found beyond a reasonable doubt. See id. at 483, n. 10, 490, 120
S. Ct. 2348. Mandatory minimum sentences increase the penalty for a crime.
It follows, then, that any fact that increases the mandatory minimum is an
“element” that must be submitted to the jury. Accordingly, Harris is
overruled.
Alleyne, 133 S. Ct. at 2155.
Alleyne is factually similar to this case. The defendant in Alleyne was
charged with using or carrying a firearm in relation to a crime of violence under 18
U.S.C. § 924(c)(1)(A), but the jury did not indicate on its verdict form that the
firearm was brandished. Id. at 2156. Notwithstanding, the sentencing court
imposed the 7-year mandatory minimum sentence on the basis of Harris, which
held that brandishing was a sentencing factor that it could find by a preponderance
of the evidence without violating the 6th Amendment. Id. The Supreme Court
vacated the sentence, noting that “because the fact of brandishing aggravates the
legally prescribed range of allowable sentences, it constitutes an element of a
separate, aggravated offense that must be found by the jury[.]” Id. at 2162. It
further observed: “Because the finding of brandishing increased the penalty to
which the defendant was subjected, it was an element, which had to be found by the

117

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

jury beyond a reasonable doubt. The judge, rather than the jury, found
brandishing, thus violating petitioner’s Sixth Amendment rights.” Id. at 2163-64.
b.

Argument

The defendant’s claim fails under both Strickland prongs. Simply put,
counsel did not ineffectively fail to challenge the defendant’s 84-month sentence on
Count 2 on the basis of Apprendi because Harris had squarely foreclosed any such
claim at the time of the defendant’s sentencing. See Harris, 536 U.S. at 556—57
(holding that a fact increasing a defendant’s mandatory minimum sentence,
specifically brandishing a firearm under § 924(c)(l)(A)(ii), was not subject to the
Apprendi rule and could be found by a sentencing judge rather than a jury). And
any such claim was not cognizable until the Court decided Alleyne on June 17, 2013,
which was more than a year after the defendant was sentenced on April 16, 2012.
Moreover, the Court granted certiorari to hear the Alleyne case on October 5, 2012,
see 133 S. Ct. 420, which was more than five months after this Court sentenced the
defendant on April 16, 2012 (see Doc. 120, J. at 1).
Therefore, judged from counsel’s perspective at the time of sentencing, his
decision not to challenge the 84-month was manifestly reasonable. See Strickland,
466 U.S. at 689 (“A fair assessment of attorney performance requires that every
effort be made to eliminate the distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to evaluate the conduct from
counsel’s perspective at the time.”); Bullock, 297 F.3d at 1052 (“[W]e have rejected
ineffective assistance claims where a defendant faults his former counsel not for

118

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

failing to find existing law, but for failing to predict future law and have warned
that clairvoyance is not a required attribute of effective representation.”) (internal
quotation marks omitted). Cf. Phillips, 204 Fed. Appx. 765 (Defense counsel’s
failure to object to 65-month sentence for possession of a firearm by a convicted
felon on constitutional grounds under Blakely was not ineffective assistance of
counsel, where defendant was sentenced even before certiorari was granted in
Blakely.).
Moreover, counsel’s failure to challenge the 84-month sentence on Count 2 at
sentencing did not prejudice the defendant because this Court would have been
constrained to deny the defendant’s challenge on the basis of Harris. So because his
challenge would have been fruitless, the defendant cannot show he suffered any
prejudice from his counsel’s failure to mount any such challenge. In other words,
even if counsel had challenged his sentence on this ground, this Court would have
been constrained to impose the same 84-month sentence under Harris. See Orange,
447 F.3d at 797 (“When, as here, the basis for the ineffective assistance claim is the
failure to raise an issue, we must look to the merits of the omitted issue. If the
omitted issue is without merit, then counsel’s failure to raise it is not prejudicial,
and thus is not ineffective assistance.”) (internal citation omitted).
The government also notes that Alleyne is not retroactive on collateral
review, so the defendant is not entitle to relief even if this Court imposed sentence
in violation of Alleyne. See In Re Payne, 733 F.3d 1027 (10th Cir. 2013) {Alleyne not
retroactive on collateral review).

119

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

D.

Claims regarding counsel’s performance on direct appeal

The defendant claims his appellate counsel performed ineffectively in several
respects. Whether the defendant can show that appellate counsel performed
ineffectively depends on the merit of the claim that counsel failed to raise on appeal;
if the claim lacked merit, then no ineffective assistance occurred.
A claim of appellate ineffectiveness can be based on counsel’s failure to
raise a particular issue on appeal, although it is difficult to show deficient
performance under those circumstances because counsel “need not (and
should not) raise every nonfrivolous claim, but rather may select from among
them in order to maximize the likelihood of success on appeal.” Id. at 288,
120 S. Ct. 746 (following Jones v. Barnes, 463 U.S. 745, 103 S. Ct. 3308, 77 L.
Ed. 2d 987 (1983)). Thus, in analyzing an appellate ineffectiveness claim
based upon the failure to raise an issue on appeal, “we look to the merits of
the omitted issue,” Neill v. Gibson, 278 F.3d 1044, 1057 (10th Cir. 2001)
(quotation omitted), cert, denied, 537 U.S. 835, 123 S. Ct. 145, 154 L. Ed. 2d
54 (2002), generally in relation to the other arguments counsel did pursue. If
the omitted issue is so plainly meritorious that it would have been
unreasonable to winnow it out even from an otherwise strong appeal, its
omission may directly establish deficient performance; if the omitted issue
has merit but is not so compelling, the case for deficient performance is more
complicated, requiring an assessment of the issue relative to the rest of the
appeal, and deferential consideration must be given to any professional
judgment involved in its omission; of course, if the issue is meritless, its
omission will not constitute deficient performance.

Cargle v. Mullin, 317 F.3d 1196, 1202 (10th Cir. 2003).
1.

Failure to challenge sufficiency of evidence on Count 2

2.

Failure to challenge sufficiency of evidence on Count 3

The defendant argues his counsel ineffectively failed to challenge the
sufficiency of the evidence to support his conviction on Count 2, which was the
§ 924(c) gun charge. (See Doc. 146, at 7 (Ground 7); Doc. 147, at 17-19; Doc. 148
at 5-8.) He also contends his counsel ineffectively failed to challenge the
120

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

sufficiency of the evidence to support his conviction on Count 3, which was the
felon-in-possession charge. (Doc. 146, at 7 (Ground 7); Doc. 147, at 17-19; Doc.
148, at 8-9.)
In support of both claims, he broadly asserts the government’s evidence did
not tie him to the bank robbery or the guns used to commit the robbery:
Movant submits that the government did not present any evidence during
trial that Movant robbed the bank, was a getaway driver, or was ever at the
crime scene. Further more, the government failed to present any evidence
that Movant possessed any firearm or even knew of the use of any firearm or
the robbery for that matter. The government had to prove beyond a
reasonable doubt that Movant possessed or carried a firearm or that he aided
& abetted the principle’s use and carriage of a firearm. Q The evidence
adduced only proved that Movant was arrested in a home where US currency
linked to the bank was found. . . . The government’s evidence only placed
Movant in a dwelling where US currency was discovered after the robbery
had taken place, yet no firearms was ever discovered in the home.
(Doc. 148, at 5-6 (internal citation omitted).) (See also id. at 8 (“Movant submits
that the government again failed to present any evidence that Movant possessed
any firearm or had knowledge of any firearm. . .. [I]n the instant case there was no
evidence that put Movant at the crime scene.”).)
Even if counsel performed ineffectively by failing to challenge the sufficiency
of the evidence on Counts 2 and 3, such failure did not prejudice the defendant
because the Tenth Circuit would have rejected any such challenge, so his claim fails
under Strickland’s prejudice prong. First, counsel lodged a vigorous sufficiency-ofthe-evidence challenge to Count 1, and the Tenth Circuit rejected it, finding “the
government presented ample evidence to support the jury’s finding that Defendant
was one of the three men who robbed Equity Bank.” See Rogers, 520 Fed. Appx. at
121

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

729 (emphasis added). That the Tenth Circuit rejected his sufficiency claims as to
Count 1 is dispositive evidence that it would have rejected a sufficiency challenge to
Counts 2 and 3, because government presented the same evidence at trial to support
Count 1 as it did to support Counts 2 and 3. And because the Tenth Circuit denied
the defendant’s challenge to Count 1, it would have also rejected any challenge to
Counts 2 and 3. (See id. at 729 n.l (“Because Defendant’s robbery conviction
stands, so do his other two convictions.”).) Therefore, the defendant cannot show
that but for his counsel’s failure to challenge his convictions on Counts 2 and 3, the
Tenth Circuit would have vacated his convictions on these counts.
Second, the Tenth Circuit’s finding that the government proved beyond a
reasonable doubt “that Defendant was one of the three men who robbed the bank,”
520 Fed. Appx. at 729, effectively moots all of the defendant’s assertions that he did
not participate in the robbery. Because this finding is now law-of-the-case, this
Court must consider the defendant’s instant claim in light of this finding. So
considered, this Court may easily conclude that the Tenth Circuit would have
denied an appellate challenge to Counts 2 and 3 on the basis of the tellers’
testimony that two of the three bank robbers possessed weapons during the robbery.
(See Trial Tr. at 29-35 (one of the two robbers who jumped over the tellers’ counter
into the vault area had a gun and threatened to shoot her); id. at 41-42, 46 (third
robber in lobby was pointing and waiving his firearm at tellers).)
Based on this evidence, the Tenth Circuit would have denied any sufficiency
challenge to Counts 2 and 3 because this evidence established that two of the three

122

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

robbers had guns, and if the defendant was one of the three robbers, he was guilty
of Count 2 under an aiding-and-abetting theory even if he was the robber who did
not possess the gun. In instruction 21, this Court instructed jury that it could
convict defendant on Count 2 under an aiding-and-abetting theory if it found: (1)
“someone else committed the charged crime,” and (2) defendant “intentionally
associated himself in some way with the crime and intentionally participated in it
as he would in something he wished to bring about” and “consciously shared the
other person’s knowledge of the underlying criminal act and intended to help
him”).)10
Even assuming arguendo that the defendant was the robber who did not
possess a gun and one of his cohorts committed the offense as a principal, the
evidence overwhelming established the robber without the gun intentionally
participated in the robbery and his cohorts’ use of guns to facilitate that robbery as
something he wished to succeed, and he consciously shared knowledge that the
other two robbers were participating in the robbery with their firearms. The trial
evidence showed as much:
At around 10:38 a.m. on the morning of the robbery, three African American
males wearing masks and gloves entered the Equity Bank on North Webb Road in
Wichita, Kansas. (Trial Tr. at 9, 54-56, 378.) When they entered, the bank’s branch
The government acknowledges that this instruction is erroneous in light of
Rosemond, but because Rosemond does not apply retroactively on collateral review
for the reasons already discussed, Rosemond has no application to this Court’s
resolution of this issue.
10

123

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

manager, Kristen Myer, was in the vault room getting some supplies. (Id. at 8-9,
11, 34.) The only other employee working at the time, Susan Stevens, was on the
teller line. (Id. at 10-12.) Two of the masked men jumped over the teller counter
and started screaming, “Get down on the ground!” and “Where’s the money?” and
“Give me the money.” (Id. at 34-35.) One of the two men had a gun. (Id. at 31,
lines 4-11.) They took money from Stevens’teller drawer. (Id. at 36, 40.) The third
man, who had a gun that looked like a machine gun, remained in the lobby. (Id. at
35-37.) Neither Myer nor Stevens got on the ground because they were so shocked.
(Id. at 30.)
The two men behind the teller area instructed Myer and Stevens to open the
vault. (Id. at 28.) When they encountered problems in opening the vault, one of the
men, who was holding a firearm, told Myer, “If you don’t open it, I’ll shoot you.
Don’t make me shoot you.” (Id. at 30-31.) Myer thought he was going to shoot her.
(Id. at 31.) Once Myer and Stevens opened the vault, the two men started taking
money from the vault and putting it in a laundry bag. (Id. at 31-32.) While they
did so, Myer backed into a corner of the vault and crouched down because she was
worried that the men would shoot her on the way out:
I just wanted to get as small as possible, I-I don’t-I didn’t know what
to do so I was thinking, What am I supposed to do now, but I wanted to get as
small as possible because I was kind of worried that they were going to shoot
me on the way out because, you know, even though they’re in-they’re covered
up, you know, you never know if they’re thinking, Oh, she saw me or
something, I don’t know.
I was worried they were going to shoot me on the way out.
(Id. at 32-33 (Myer’s testimony).)
124

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

During these events, the third man who had remained in the lobby area
walked up to the teller counter, pointing and waving his firearm at Myer and
Stevens. (Id. at 41-42, 46.) After taking the money, the three men left the bank
through the front door and drove away in a sport-utility vehicle. (Id. at 39.)
These facts, viewed in the light most favorable to the government, as the
Tenth Circuit would have viewed them on appeal,11 leave no doubt that each of the
three robbers, including the one who did not have a firearm, was fully aware and
knowledgeable that a bank robbery was occurring, that firearms were involved, and
that those firearms were being used by at least two of the robbers to facilitate the
robbery. No doubt exists that the robber without the gun consciously shared the
other two robbers’ knowledge of the guns and the underlying criminal act and
intended to help them both commit the robbery and use the firearms to facilitate
the robbery.
3.

Failure to challenge 84-month sentence on Count 2

The defendant alleges that his appellate counsel ineffectively failed to
challenge his 84-month sentence on Count 2. (See Doc. 146, at 8; Doc. 147, at 20.)
He reasons that “the jury found movant guilty for ‘possession’ which carries 60
months (5 years), and not ‘brandishing’ as the Sentencing Court sentenced movant
for.” (Doc. 146, at 8.) As a result, he asserts “Movant’s sentence is unconstitutional
See United States v. Wells, 739 F.3d 511, 525 (10th Cir. 2014) (in addressing
a sufficiency challenge on appeal, court “must take the evidence—both direct and
circumstantial, and reasonable inferences drawn from that evidence—in the light
most favorable to the government and ask only whether a reasonable jury could find
the defendant guilty beyond a reasonable doubt”) (quotations omitted).
li

125

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

under the 7 year sentence he was sentenced to.” (Id.) This claim is without merit.
Appellate counsel did not ineffectively fail to challenge the defendant’s
84-month sentence on Count 2 because Harris squarely foreclosed any such claim at
the time of the defendant’s appeal and remained the law until the Court overruled
Harris in Alleyne, which occurred more than two months after the Tenth Circuit
denied the defendant’s direct appeal. See Harris, 536 U.S. at 556—57 (holding that a
fact increasing a defendant’s mandatory minimum sentence, specifically
brandishing a firearm under § 924(c)(l)(A)(ii), was not subject to the Apprendi rule
and could be found by a sentencing judge rather than a jury); United States v.
Rogers, 520 Fed. Appx. 727 (10th Cir. 2013) (affirming defendant’s conviction on
April 5, 2013); Alleyne, 133 S. Ct. at 2163 (overruling Harris on June 17, 2013,
because “Harris was inconsistent with Apprendi'). Therefore, judged from counsel’s
perspective at the time of appeal, his decision not to challenge the 84-month was
reasonable because Harris was the controlling law while his appeal was pending.
See Strickland, 466 U.S. at 689 (“A fair assessment of attorney performance
requires that every effort be made to eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.”).
The government acknowledges that the Supreme Court granted certiorari to
hear the Alleyne case on October 5, 2012, see 133 S. Ct. 420, during the pendency of
the defendant’s appeal. (See Doc. 124 (defendant’s appeal docketed May 2, 2012);
Doc. 142 (Mandate issued April 29, 2013).) The government also acknowledges that

126

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

appellate counsel could have raised an argument based on Alleyne’s rationale in
anticipation receiving a favorable decision from the Supreme Court. Even so, his
failure to do so did not constitute ineffective assistance. See Bajorski v. United
States, 276 Fed. Appx. 952, 954 (11th Cir. 2008) (“Even if a claim based upon an
anticipated change in the law is reasonably available at the time counsel failed to
raise it, such failure does not constitute ineffective assistance”); Spaziano v.
Singletary, 36 F.3d 1028, 1039 (11th Cir. 1994) (“We have held many times that
‘[reasonably effective representation cannot and does not include a requirement to
make arguments based on predictions of how the law may develop.’”); e.g., United
States v. Magleby, 420 F.3d 1136, 1145 (10th Cir. 2005) (“Whatever the merits of
Mr. Magleby’s ... contention, it was not so obvious at the time of his direct appeal
that counsel’s failure to raise it was unreasonable. No decisions had yet adopted his
view.”). Because counsel did not ineffectively fail to raise an Alleyne claim in the
defendant’s direct appeal, the defendant is not entitled to relief on the basis of an
ineffective-assistance claim. Moreover, because Alleyne is not retroactively
applicable on collateral review, see In Re Payne, 733 F.3d 1027, the defendant is not
entitled to relief on any other basis.
4.

Failure to challenge bank robbery instruction—

No. 18

The defendant argues that appellate counsel ineffectively failed to challenge
instruction 18, which instructed on the elements of the offense charged in Count 1
the bank robbery count. (See Doc. 146, at 8 (“Although Counsel did not object to the
jury instructions in the trial court, Counsel could have still raised the issue on

127

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

direct appeal for plain error.”); Doc. 147, at 19 (“Counsel failed to raise the
constructive amendment in the jury instructions on direct appeal.”).)
Counsel’s failure to challenge the instruction on appeal did not constitute
ineffective assistance under Strickland because the Tenth Circuit would have
rejected his challenge under the plain-error review standard.12 The government has
already acknowledged that instruction 18 was defective, see § IV. B. 3., supra; had
counsel challenged the instruction on appeal, the government would have conceded
that giving the instruction constituted error that was plain under current law for
the reasons already explained. Thus, counsel could have established the first and
second prongs under plain-error review.

Rule of Criminal Procedure 52(b) provides for review of a “plain error” not
brought to the district court’s attention. “Under the rigorous plain-error standard, a
defendant has the burden of showing (1) an error, (2) that is plain, which means
clear or obvious under current law, and (3) that affects substantial rights.” United
States v. Begaye, 635 F.3d 456, 470 (10th Cir. 2011) (internal quotation marks
omitted). “If he satisfies these criteria, this Court may exercise discretion to correct
the error if it seriously affects the fairness, integrity, or public reputation of judicial
proceedings.” Id. (internal quotation marks omitted). Ordinarily, an error is
considered “plain” only if the Supreme Court or the Tenth Circuit Court of Appeals
has addressed the issue. United States v. Ruiz-Gea, 340 F.3d 1181, 1187 (10th Cir.
2003). To establish prejudice to substantial rights, a defendant must demonstrate a
“reasonable probability” that the error “affected the outcome of the district court
proceedings.” The court of appeals will notice a plain-error only if a miscarriage of
justice would result of the error were not corrected. See, e.g., United States v.
Olano, 507 U.S. 725, 736 (1993) (the “discretion conferred by Rule 52(b) should be
employed [only] in those circumstances in which a miscarriage of justice would
otherwise result.”) (emphasis added); United States v. Dazey, 403 F.3d 1147, 1175
(10th Cir. 2005) (quotations omitted). On appeal, a defendant must establish all
four elements of plain-error review. United States v. McBride, 633 F.3d 1229, 1233
(10th Cir. 2011) (“Defendant is not entitled to relief if he fails to establish one or
more of the four elements of plain error.”)
12

128

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

Notwithstanding, counsel’s challenge would have still failed because he could
not have established either the third prong—relating to substantial rights—or the
fourth prong—relating to miscarriage of justice. See n.10, supra. Counsel could not
have established either prong for the simple reason that instruction 18 required the
jury to find all of the elements of the § 2113(a) violation, even though the
instruction was tailored to a § 2113(d) violation. As noted, instruction 18 tracked
Tenth Circuit Pattern Instruction 2.77 by instructing on the four elements listed in
that instruction. Compare 10th Cir. Pattern Crim. Jury Inst. 2.77 (2011) (fisting
four elements) with Doc. 98, Instr. No. 18 (setting forth identical elements). The
first three of these elements accurately set forth the elements of the § 2113(a)
violation. See 10th Cir. Pattern Crim. Jury Instr. 2.77 (2011) (stating in Use Note
that “[i]f a subsection (d) violation is not alleged, the fourth element and its
corresponding definitions would be deleted”). So in finding the defendant guilty on
Count 1 based on the elements set forth in in instruction 18, the jury necessarily
had to find that the defendant committed these first three elements constituting a §
2113(a) violation. See Fletcher, 121 F.3d at 193 (“[T]he elements of § 2113(d)
include all of the elements of § 2113(a), plus the additional element of assault.”).
Accordingly, the defendant’s substantial rights were not affected by the defective
instruction because the jury found him guilty of all of the elements of the § 2113(a)
violation. Nor did the defective instruction (or the jury’s verdict in conformity with
that instruction) affect his sentence; on Count 1 this Court imposed a sentence of

129

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

150 months’ custody, which was below § 2113(a)’s statutory maximum of 20 years.
(See Doc. 120, J. at 2.)
For these reasons as well, the court of appeals could not have found that the
defendant received a miscarriage of justice based upon the defective instruction, so
the defendant could not have established a basis for relief under the fourth plain
error prong. Therefore, had appellate counsel challenged the instruction, his
challenge would have failed under plain-error review.
5.

Failure to raise fair cross-section claim

The defendant argues “counsel was ineffective ... on appeal for failing to
raise the issue that movant’s petit jury or jury pool had no African American males
in either.” (Doc. 147, at 9 (capitalization omitted).)
The defendant cannot show that appellate counsel’s failure to raise this claim
constituted ineffective assistance under either Strickland prong because any
challenge on this basis would have been unsuccessful for the reasons already
explained in § IV. B. 1., supra. No further discussion is necessary.
6.

Failure to raise cumulative error claim.

The defendant claims his due process rights were violated “[d]ue to the many
‘Cumulative Effects” of Counsel’s errors[.]” (Doc. 146, at 8.) (See also Doc. 147, at
20-21.) He does not specifically assert that his appellate counsel ineffectively failed
to present this claim on appeal, but the government liberally construes the
defendant’s claim as alleging as much because any such claim would not have
ripened until the proceedings in the district court had terminated. Even so

130

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

construed, however, the defendant’s claim must fail. For reasons already explained,
none of the defendant’s claims of ineffective assistance of counsel are meritorious;
therefore, no errors exist to cumulatively consider.

WHEREFORE, the government prays that this Court DENY the
defendant’s motion.

Respectfully submitted,
s/BARRY R. GRISSOM
UNITED STATES ATTORNEY
s/ James A. Brown
JAMES A. BROWN #14254
Assistant United States Attorney
444 S.E. Quincy, Suite 290
Topeka, KS 66683
(785) 295-2850
James. Brown2@usdoj. gov

131

Case 6:10-cr-10186-JWB Document 156 Filed 04/07/14 Page 1 of 67

CERTIFICATE OF SERVICE
I hereby certify that on the 7th day of April, 2014,1 electronically filed the
foregoing response with the clerk of the court by using the CM7ECF system, which
will send a copy of this pleading to the defendant’s last attorney of record, and I
sent a copy via first-class U.S. Mail to: Raymond L. Rogers, Reg. No. 20787-031,
FCI Forrest City Medium, FEDERAL CORRECTIONAL INSTITUTION, PO
BOX 3000, FORREST CITY, AR 72336..

s/ James A. Brown
JAMES A. BROWN

132

